<html>
<title> - WILDLAND FIRE PREPAREDNESS</title>
<body><pre>[Senate Hearing 107-706]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-706
 
                       WILDLAND FIRE PREPAREDNESS
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

 TO REVIEW THE OUTLOOK FOR THIS YEAR'S WILDLAND FIRE SEASON AS WELL AS 
TO ASSESS THE FEDERAL LAND MANAGEMENT AGENCIES' STATE OF READINESS AND 
               PREPAREDNESS FOR THE WILDLAND FIRE SEASON

                               __________

                              MAY 7, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources






                       U. S. GOVERNMENT PRINTING OFFICE
82-000                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                         Kira Finkler, Counsel
                Frank Gladics, Professional Staff Member
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Burns, Hon. Conrad, U.S. Senator from Montana....................     8
Cantwell, Hon. Maria, U.S. Senator from Washington...............    29
Craig, Hon. Larry E., U.S. Senator from Idaho....................    28
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    10
Holtrop, Joel, Deputy Chief for State and Private Forestry, U.S. 
  Forest Service; accompanied by Jerry Williams, Director, Fire 
  and Aviation Management, USFS; Tim Hartzell, Director, Office 
  of Wildland Fire Coordination, Department of the Interior; and 
  William Maxon, Executive Director, Southwest Strategy 
  Coordination Council...........................................    12
Johnson, Hon. Tim, U.S. Senator from South Dakota................     7
Kyl, Hon. Jon, U.S. Senator from Arizona.........................    32
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    20
Smith, Hon. Gordon H., U.S. Senator from Oregon..................    35
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    10
Wyden, Hon. Ron, U.S. Senator from Oregon........................     9

                                APPENDIX

Responses to additional questions................................    41















                       WILDLAND FIRE PREPAREDNESS

                              ----------                              


                          TUESDAY, MAY 7, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Let me call the hearing to order. Before I 
start in on the short statement that I have prepared and then 
defer to my colleague here for his statement related to the 
subject of this hearing, let me just say a couple of words 
about this issue that is prominently featured in today's news, 
and that is the FERC released yesterday some important 
information on price manipulation in Western electricity 
markets by Enron. Those documents provided by the new 
management at Enron are part of the FERC investigation that 
resulted from this committee's hearing on January 29. That 
hearing focused on the effect of Enron's collapse on energy 
markets. At that time Chairman Wood agreed to begin an 
investigation at the request of Senators Feinstein, Wyden, and 
Cantwell.
    As we digest this information, I am going to be consulting 
with my colleagues on the appropriate next steps that Congress 
and particularly this committee should take to ensure that the 
price manipulation and lack of transparency in energy markets 
is effectively exposed and remedied. We obviously do not want 
to interfere with the ongoing investigation of FERC, but we 
will try to ensure that as we move forward in conference on our 
larger energy bill we remain alert to problems in the effective 
functioning of these markets. We may need to have an additional 
hearing here in this committee on this general subject as we 
proceed.
    This morning the committee will hear from the Forest 
Service and from the Department of the Interior regarding the 
outlook for this year's wildland fire season, as well as the 
agencies' state of readiness and preparedness for the fires 
that have already begun in many parts of the West.
    I want to thank all the witnesses for coming this morning. 
I especially want to recognize Bill Maxon. He is with the Fish 
and Wildlife Service. He is the executive director of the 
Southwest Strategy in Albuquerque. It provides an important 
forum for Federal agencies trying to coordinate and cooperate 
with each other on tribal, State, and local government issues 
in the Southwest.
    Unfortunately for some of the committee members, this fire 
season is well under way in their States. This certainly 
includes my State of New Mexico, where the Penasco fire in the 
southern part of New Mexico forced several residents to 
evacuate as it burned more than 15,000 acres. Yesterday we had 
a new fire break out near Pecos, New Mexico. That has now grown 
to nearly a thousand acres.
    Many of my constituents, as well as the diverse array of 
interest groups, all make the same point to me, that over the 
long haul in order to decrease the number of catastrophic 
wildland fires we need to restore our national forests and 
public lands through hazardous fuels reduction and other 
measures. Obviously, the costs involved in this restoration are 
significant, but over the long term it is much less expensive 
to do this than it is to fight the fires. Restoring our lands 
is the preferred alternative for the environment as well 
because important species' habitats burn right along with the 
forests during these extremely hot fires that we have seen.
    Given this principle, it is unclear during the past two 
budget cycles why we have not had the administration requesting 
the funds that were contemplated under the national fire plan. 
We need to sustain the commitment to this national fire plan 
over a long period of time. I know Senators on both sides of 
the aisle have made that point repeatedly. This means at a 
minimum sustaining fiscal year 2001 funding levels for all 
components of the National Fire Plan.
    Recently the Western Governors Association sent a letter to 
Congress urging full funding for the National Fire Plan at the 
fiscal 2001 funding levels. Unfortunately, the important 
programs that are part of that plan, including economic action 
programs, community and private land fire assistance, and 
burned area restoration and rehabilitation, have been proposed 
for drastic cuts. In some instances they have actually been 
zeroed out in the administration request.
    I am troubled that this 2003 budget eliminates the economic 
action program entirely. I think we need to understand the 
thinking of the administration on that. It is troubling that 
the Forest Service, after borrowing millions of dollars from 
its hazardous fuels reduction account to pay for emergency 
firefighting, is as I understand it not returning the funds to 
that account after being reimbursed by Congress for the 
emergency firefighting expenses. We need to explore that.
    I think some agencies disagree with the concept of 
prioritizing hazardous fuels reduction in the wildland-urban 
interface. They are disregarding clear congressional direction 
because in fiscal year 2000 Congress intentionally focused the 
additional hazardous fuels reduction funds on the wildland-
urban interface because the General Accounting Office and other 
studies found that the agencies did not consider protecting 
communities their number one priority for the hazardous fuels 
reduction program.
    Again, we need to be sure we understand the 
administration's view on this, because it is still my view that 
the protection of communities needs to be given top priority.
    Overall, I would say it is unclear to me why the Forest 
Service fiscal year 2003 budget requests $39 million less for 
fire preparedness as compared to last year's enacted level. 
This has been a bipartisan concern of this committee and 
members of this committee for several years. I think it is 
clearly a major concern right now because of the drought that 
we are facing through much of the West. I can see on the map 
which I know the witnesses are getting ready to refer to the 
drought conditions that we are faced with throughout the 
Southwest and many other parts of the country.
    I hope we can get good information from the administration 
about how to proceed and hope we can find ways to proceed 
jointly.
    Let me defer to whichever of my colleagues would like to 
make an opening statement and then we will go to the witnesses.
    [A prepared statement from Senator Johnson follows:]
         Prepared Statement of Hon. Tim Johnson, U.S. Senator 
                           From South Dakota
    Thank you, Mr. Chairman for holding this hearing to assess the 
Federal land management agencies state of readiness and preparedness 
for the wildland fire season. With the outbreak of a 400 acre wildfire 
that has caused the evacuation of over 2,400 people twenty-five miles 
west of Denver, Colorado, today's hearing is a critically important 
examination of the National Fire Plan. I appreciate the willingness of 
officials from the Office of Wildland Fire Coordination, as well as 
officials from the State and Private Forestry and Fire and Aviation 
Management agencies within the U.S. Forest Service to take the time to 
be with us this morning. I am keenly interested in hearing from the 
Forest Service and the Office of Wildland Fire Coordination on the 
progress made to enhance interagency cooperation and improve 
coordination and resource utilization by Federal and state land 
management agencies.
    As you may know, Mr. Chairman, the vast majority of the 1.2 million 
acre Black Hills National Forest (BHNF) sits squarely in South Dakota. 
The BHNF is a biologically distinct ecosystem that is supported by a 
diversity of plant and animal communities. With 300,000 acres of 
private and state lands sprinkled throughout the Black Hills, the 
Forest Service has traditionally administrated BHNF for multiple uses, 
including timber, grazing, watershed, and wildlife conservation. The 
management plan of the BHNF along with significant human development 
has created a wildland-urban interface where fire suppression goes hand 
in glove with public safety and forest health.
    The BHNF has experienced three severe forest fires in the last two 
years. These three fires burned over 100,000 acres of land combined. 
The Forest Service is now engaged in the critical work of ensuring that 
these lands are effectively rehabilitated. Specifically, the Forest 
Service must remove hazardous trees, seed burned areas with grasses, 
prevent an invasion of noxious weeds, and fence aspen shoots.
    The Black Hills is a unique area with rugged gulches and stands of 
ponderosa pine melting into a prairie ecosystem. Unlike large tracks of 
uninhibited forest land, the Black Hills is also a major commercial hub 
with 100,000 people scattered along communities in the shadow of the 
Hills. The threat of wildland fire encroaching on municipal watersheds, 
communities, and personal property poses a real risk. To the 
communities of the Hills, effective fire suppression techniques and 
forest stewardship is the key to ensuring public safety, protecting 
private property, and sustaining ecological diversity.
    With a patchwork of state, tribal, and federal lands, improving 
coordination is crucial to maximizing resources and facilitating the 
exchange of information to curtail needless and costly delays. The 
Forest Service manages 192 million acres and has budgetary authority 
over a ballooning fire suppression account. I am interested in hearing 
from today's witnesses on the steps taken toward improving the 
coordination and communication of resources and information of the 
National Fire Plan.
    Fireland management is crucial to ensuring the public safety of the 
communities of my state and preserving the beauty and health of the 
Black Hills for the hundreds of thousands of visitors who traverse the 
Hills. Thank you, again, Mr. Chairman, for holding this hearing and I 
look forward to exploring these issues further with our witnesses.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Mr. Chairman, thank you very much. I have 
another appointment here at 10 o'clock that is kind of 
important and I just want to make a statement and bring it back 
to real world.
    First of all, thank you for this hearing. In light of what 
has happened in the ag bill that we will go to conference and 
we will vote on probably tomorrow and how they treated the 
Forest Service and some of the programs that we have in the 
Forest Service, it is less than desirable. These hearings are 
very, very important and very, very timely.
    A couple of issues. I do not know, it was last week some 
time or other, I cannot remember the date, but the New York 
Times had a picture of dirt blowing in Montana. We are going 
into our fifth year of drought. It showed an old breaking plow 
that had not been used probably in the last 20 years, an old 
moldboard plow. Some of you probably know what those are. There 
may be some in this room that probably do not. But it was about 
half covered up in dirt, because dirt is starting to move in 
Montana.
    Now, we have conflicting cultures here where now they want 
to list the prairie dog as endangered and they want him to 
prosper out through the land, but you have got to remember he 
eats everything in those towns. There is no cover, there is no 
plant cover. That dirt is starting to move.
    A good friend of mine--and now that dirt is starting to 
move and we are losing our topsoil in Montana. I would say if 
you look at our State we are very, very dry in the eastern 
plains, and of course we have not had a great year of snowpack. 
It is better than usual. We are getting it. We have more water 
than we have had in the last 4 years, I would say, but it did 
not extend eastward onto the plains.
    So we will definitely have range fires this year, because 
it has always been a fire year in Montana the last 5 years. We 
have made headlines everywhere.
    But I wanted to bring that up because--and what has 
happened in the farm bill, that these hearings are timely and 
fire control is again going to be a situation in my State of 
Montana, as it is in the chairman's State, and the devastation 
that they have encountered down there, and I am very sensitive 
to that situation down there.
    But remember that some of the things that we are doing to 
prevent fires is absolutely, and also to hold soil, hold 
topsoil, is running counter to any kind of sound conservation 
practice as far as agriculture is concerned or what is 
happening to our land in general.
    So I just want to submit a little statement here. Thank you 
for holding these hearings because they are very important. I 
am sorry, I just will not be here to listen to the testimony, 
and I would rather hear them than go where I am going, but I 
ain't got a lot of choice. So I thank you for that.
    But I want everybody to just be aware of some of the 
conservation practices that we are using now is running counter 
to what some folks who do not live on the land, do not 
understand the relationship of sun, soil, and water and good 
conservation practices.
    So I thank you very much for this time, and I thank the 
witnesses for coming today. It is very, very important.
    [The prepared statement of Senator Burns follows:]
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana
    Thank you, Mr. Chairman for holding this hearing, and thank you to 
the witnesses for appearing today. This is not the first fire hearing 
we have all attended and it won't be the last. We have had forest and 
wildfires in this country every year that I remember, and I expect 
we'll have them again this year.
    We are headed into our fifth year of drought in parts of Montana, 
and unless things change quickly, it will be another big fire season 
for us. It seems like every year is a bad fire year in Montana anymore.
    While fire can be a healthy part of the life cycle of a forest or 
range, it can also wreak havoc on the ecosystem if it is too hot, 
sterilizes the soil, and turns the landscape into something that looks 
like the surface of the moon.
    The hot and dangerously unpredictable fires we often see in forests 
today happen because there's too much undergrowth, and doghair stands 
of trees will produce more uncontrollable fires than less dense 
forests. This isn't good for the ecosystem, the fire-fighters, or the 
American taxpayer.
    And when that fire jumps the fence from the National Forest and 
heads onto private land, we all feel for those who lose their homes, or 
their pastures and fences. The uncertainty and hardship fires cause are 
very damaging to rural America.
    A few years back we worked very hard to get enough money together 
to fund the National Fire Plan, and we'll be working on it from an 
appropriations standpoint for the next several years. But for all the 
millions of dollars we have spent, I notice a big piece missing. Where 
is the prevention? Where is the forest health? I understand there is an 
effort to remove some underbrush and smaller fuel--but it seems to me 
these projects are much too small, and focused on the urban interface. 
We are ignoring the larger issue here if we look at the problem a few 
acres at a time. We need to improve forest health across the board. We 
have to remove some of the fuel out there, and you can't do it with a 
handsaw, you need to do it with a logging truck.
    Fires will happen, and we need a way to get on the ground afterward 
for restoration work. If you paid attention to the debate over the 
Bitterroot National Forest Restoration Plan, you noticed that the 
Forest Service was in court over it in January. This was a year and a 
half after the Bitterroot burned, environmental work had been done, and 
lawsuits filed.
    We need to remember that this story doesn't end when the fire goes 
out. In Montana today you'll find streams full of silt, weakened 
forests beginning to show the signs of bug kill.
    There should be a quick-response mechanism in place to deal with 
restoration and rehabilitation. Right now, the system is broken--and 
Montanans are the ones suffering because of it.
    I look forward to hearing from the witnesses and finding out how we 
can address these challenges. Thank you.

    The Chairman. Senator Wyden, did you have any statement 
here?

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Just very briefly, Mr. Chairman. First let 
me thank you for the opening comments you made with respect to 
the Enron situation. As you know, the west coast is a power 
grid and so there is a direct connection between what happens 
in California and in the Pacific Northwest. I am very pleased 
that you are going to continue to monitor this.
    I would hope in particular that this would give a new 
impetus to the provision that we included in the energy bill to 
establish a ratepayer advocate at the Department of Justice, 
because had that provision been in place we might have had a 
person with the power to blow the whistle early on so as to 
prevent much of this damage. I am very pleased with the 
comments that you have made this morning with respect to Enron.
    The only other point that I want to make deals with the 
matter of wildland fires. As you know, as chair of the Forests 
and Public Land Management Subcommittee we will be working very 
closely with you on these issues. My bottom line is there has 
got to be a way to get fire-prone materials out of the forests, 
employ people in rural communities at family wage-earning jobs, 
and maintain environmental integrity. I think we can do this 
consistent with maintaining full funding for firefighting. We 
will be working with you closely, Mr. Chairman, on a bipartisan 
basis, and I thank you for holding this hearing.
    The Chairman. Thank you very much.
    Senator Thomas, did you have any statement that you would 
like to make?

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Just very briefly, 
I am pleased too to have this hearing. We need certainly to 
talk about this issue. I think you have mentioned in the last 
couple of years, frankly the past administration--it has been a 
long time since we have done much with fire protection, and 
that goes beyond the current administration, I can tell you.
    The national fire plan--2000, for instance, was the most 
challenging year we have had for a very long time--8.4 million 
acres of fire. $6.6 billion over the last 3 fiscal years 
allocated for the various fire projects. I guess the key points 
are firefighting, burning area rehabilitation and restoration, 
hazardous fuels reduction, community assistance, and 
accountability. Well, those are good points. I guess we have to 
talk a little bit about the priorities in terms of those 
things.
    Obviously, we are having a great deal of drought in many 
areas. I just want to mention that our State in Wyoming has 
done a good deal on this. They have purchased Blackhawk water 
buckets, they have transportation equipment, and so on and so 
on. They are doing quite a few things.
    But in any event, I hope that we get our priorities in 
terms of, I think some of the things we could do in thinning 
would be very effective if we do it earlier, not when you are 
faced with a fire. The thinning is not the issue. But that 
ought to be a longer term priority to try and avoid these fires 
if we possibly can. Obviously, you cannot avoid them all.
    So I am glad we are here and I want to hear the witnesses.
    The Chairman. Well, thank you.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Mr. Chairman, I just want to 
wholeheartedly thank you for calling this meeting. You know as 
well as I, in our State we are going to have another drought. 
We are in the middle of it. Everybody predicts it. We cannot 
hardly live with the water we have got in New Mexico when we 
have a non-drought year, so all kinds of problems are going to 
come up in our State.
    With reference to the forests and BLM land--let us just 
talk about them together--it is pretty obvious to me that even 
if we put a lot of money in, as we did last year, you might 
recall--we put in a big chunk of money on the floor, called it 
Happy Forests. You helped with it. Each Forest Service and BLM 
got about $140 million. Then we had a regular appropriation 
which we loaded up. I am hopeful that we are going to do better 
than the President in this area in our appropriations.
    But it is amazing. It is hard to see results. When you look 
at the whole picture, what a deplorable state our forests were 
in in terms of thickness, in terms of letting trees grow right 
up along side of buildings--I cannot really find out where all 
the money is going, where it went. But there is an awful lot of 
it out there. I assume these two experts will tell us that we 
are certainly putting more resources in than we ever have.
    I think everybody knows what the policies are. I heard you 
say, Mr. Chairman, as you walked in that you remain concerned 
about fire damage up alongside of buildings, homes, and other 
kind of things. Did I hear you right?
    The Chairman. Yes.
    Senator Domenici. It is a terrible thing, and we are not 
making a lot of headway. We are making some, but it is very 
slow. As you know, if you were to take people out to show them 
you would have to give them pretty good notice in advance to 
take you somewhere that would really be a good picture of 
success.
    Nonetheless, we have to keep on trying our best. I will 
tell you and the committee, there is a drought bill in the 
makings that has been in the making for about 2\1/2\ years as a 
result of the group of experts headed by the Secretary of 
Agriculture that was appointed under a statute we passed. They 
have now issued their report and we will have a draft bill. We 
will hope that a number of members of this committee will join 
it.
    What it does is it permits some early funding on preventive 
measures when you have a predictable drought, rather than 
waiting until it happens. It will require that we know a 
little, that we rely on our Weather Service people maybe more 
than their expertise justifies. But unless we do something like 
that, all we do now is we have a drought and we go see the 
Department of Agriculture and see what kind of programs they 
have. If they do not have any that fit it, we do not do 
anything.
    But other kinds of disasters that are not like this--but 
this is a disaster. Our State will be in a disaster position in 
terms of many of the areas there, just as much as if you were 
hit by a wind storm or a hurricane or whatever. It eats away at 
you very gradually. But it surely is there.
    So thank you so much. It is good to be here this morning. I 
wanted to ask you, are you doing your exercise, getting ready 
for the little tiny marathon we are going to have on the energy 
bill?
    The Chairman. I thought we just had that.
    Senator Domenici. Oh, you have not see anything yet.
    The Chairman. I thought we just finished the marathon.
    Thank you very much.
    Let me introduce our witnesses: Tim Hartzell, who is the 
Director of the Office of Wildland Fire Coordination at the 
Department of the Interior, accompanied by Bill Maxon, who is 
the Executive Director of Southwest Strategy Coordination 
Office; and also Joel Holtrop, who is the Deputy Chief of the 
State and Private Forestry in the U.S. Forest Service, 
accompanied by Jerry Williams, who is Director of Fire and 
Aviation Management at the Forest Service.
    I understand you have a joint statement and you are going 
to split up the responsibility of testifying. So why do you 
folks not proceed in whatever order makes sense.

 STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF FOR STATE AND PRIVATE 
 FORESTRY, U.S. FOREST SERVICE; ACCOMPANIED BY JERRY WILLIAMS, 
  DIRECTOR, FIRE AND AVIATION MANAGEMENT, USFS; TIM HARTZELL, 
                           DIRECTOR, 
    OFFICE OF WILDLAND FIRE COORDINATION, DEPARTMENT OF THE 
  INTERIOR; AND WILLIAM MAXON, EXECUTIVE DIRECTOR, SOUTHWEST 
                 STRATEGY COORDINATION COUNCIL

    Mr. Holtrop. Mr. Chairman and members of the committee: 
Thank you for the opportunity to meet with you today. As the 
members of the committee indicated, this is an important issue 
and we very much appreciate the opportunity to talk about it 
with you today.
    I am Joel Holtrop, the Deputy Chief for State and Private 
Forestry with the Forest Service. As you mentioned, with me I 
have Tim Hartzell, Director of the Office of Wildland Fire 
Coordination, Department of Interior; Jerry Williams, Director 
of Fire and Aviation Management for the Forest Service; and 
William Maxon, the Executive Director for the Southwest 
Strategy.
    Since the Department of the Interior and the Department of 
Agriculture's Forest Service work so closely together in fire 
management and in the implementation of the national fire plan, 
it is appropriate that we use one statement to review the 
outlook for the fire situation for this year and the 
Department's state of record of decision and preparedness for 
the fire season, and it is appropriate that we are here 
together to appear before you.
    At the outset, Mr. Chairman and members of the committee, I 
want to thank you for the support that you have given to the 
fire management program and especially to thank you for your 
support for the brave young men and women of our firefighting 
resources who do an impressive job under very adverse 
situations, often adverse situations, and they deserve our 
thanks, our support, and our admiration.
    As we look at the fire situation and the outlook for this 
fire season, the outlook unfortunately is for a severe fire 
season, as you have already indicated. As you know, we are 
already experiencing a number of wildland fires across the 
Nation. The map that you have up here which describes the 
drought outlook for the United States is also very helpful in 
understanding where we are likely to have above-normal fire 
activity. We have a map for the outlook of fire for the Nation 
as a whole and it roughly is very similar to the drought 
outlook map, so we do not even need to use that.
    We have dryer than usual conditions and those conditions 
are going to continue to be something that we will be dealing 
with as the summer and fall progresses as well. The outlook for 
weather conditions are for warmer than normal temperatures in 
the West and in the Southeast. Rainfall is predicted to be near 
normal and as a result in the overall 2002 fire season the 
greatest potential for fires is in southern California, the 
Southwest, the Great Basin, the Rockies, and the Eastern 
Seaboard from Florida to Maine.
    As we look at the wildland fire preparedness for both the 
Department of the Interior and Agriculture's Forest Service, 
one of the things that we want to stress is that firefighter 
safety is our highest priority. Firefighting is a high risk, 
high consequence activity. After the unfortunate incident 
following the Thirty Mile fire last July in which four 
firefighters lost their lives, we are redoubling our efforts, 
have redoubled our efforts, to ensure firefighter safety.
    At your request, we have been briefing this committee on a 
regular basis on the efforts that we have been making to 
improve firefighter safety and training. We have identified 
managing firefighter fatigue, reinforcing the use of the ten 
standard firefighter orders, fire orders, and developing 
training to avoid entrapment by fire, among other things. All 
of these improvements in training and safety are in place for 
this fire season and we are committed to doing everything we 
can to improve firefighter safety.
    In 2001, we made a great start toward increasing our 
preparedness resources, thanks to the national fire plan 
funding. We hired an additional 5400-plus fire employees, 
bringing our total Federal wildland fire work force to 17,600 
plus employees. We purchased over 400 additional engines, 56 
additional dozers, and we contracted for 31 additional 
helicopters. Our inter-agency hot shot crews, we changed the 
number, we increased the number of inter-agency hot shot crews 
between the two Departments from 66 to 87.
    Finally, our reliance on the State and local partners; I 
want to stress that as well. Often our State and local 
firefighters are the first to respond to our fire incidents. We 
rely heavily on these crews for support, especially those rural 
and volunteer fire department crews. With the national fire 
plan funds, we have been able to improve the initial attack and 
abilities with protective gear, equipment, and training.
    I would like to keep my comments brief and ask Mr. Hartzell 
to make some summary comments as well and, if it is all right 
with you, submit our testimony for the record.
    [The prepared statement of Mr. Holtrop follows:]
Prepared Statement of Joel Holtrop, Deputy Chief for State and Private 
                     Forestry, U.S. Forest Service
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to meet with you today. I am Joel Holtrop, Deputy Chief for 
State and Private Forestry with the Forest Service. With me is Tim 
Hartzell, Director of the Office of Wildland Fire Coordination at the 
Department of the Interior; Jerry Williams, Director of Fire and 
Aviation Management, Forest Service; and William Maxon, a Fish and 
Wildlife Service employee and Executive Director of the Southwest 
Strategy. Since the Department of the Interior and the Department of 
Agriculture work closely together in fire management and in 
implementing the National Fire Plan, it is appropriate to use one 
statement to review the outlook for the 2002 wildland fire season and 
describe our Departments' state of readiness and preparedness for the 
fire season. At the outset, Mr. Chairman, we want to thank you for your 
support of the fire management program and, most importantly, for your 
support of the brave young men and women who make up our firefighting 
corps. Our firefighters do an impressive job under adverse conditions 
and they deserve our thanks and admiration.
    Today we will talk about the potentially severe fire season now 
underway, and how the five Federal land-managing agencies and our 
partners are making preparations. While we prepare to fight fire this 
season as best we can, fighting wildland fires is only one aspect of 
the work we must do to protect communities and restore ecosystems.
                     the fire situation and outlook
    The outlook is for a severe fire season this year. As you know, we 
are already experiencing a number of wildland fires across the nation. 
Since 1999, La Nina, a phenomenon characterized by the abnormally cold 
temperatures in the tropical Pacific, has plagued much of the country 
with drier than usual weather. The resulting drought condition in the 
Southwest, Rockies and East Coast has set the stage for a potentially 
active fire season in those areas. Since October, areas receiving below 
normal amounts include Southern California, the Southern Great Basin, 
Southwest, Rocky Mountains and the Eastern Seaboard. The Northeast 
experienced the second driest September-to-February period in the last 
107 years.
    Analyzing fuel and weather conditions across the country, the areas 
of greatest fire potential today include the Southwest, Colorado, 
Southern California, and the Southern Great Basin. Also, fire potential 
is high in Northern Florida, Northwest Minnesota and the Southeast 
Alaskan Panhandle.
    The weather outlook for later this summer and fall calls for 
generally warmer than normal temperatures in the West and Southeast. 
Rainfall is predicted to be near normal, except for above normal early 
rains in the Pacific Northwest along with late summer/early fall 
dryness throughout the West. As a result, fire potential in the Rockies 
and Eastern Seaboard states is expected to increase this summer and 
fall. For the overall 2002 fire season, the greatest potential for 
fires is in Southern California, the Southwest, Great Basin, Rockies 
and the Eastern Seaboard from Florida to Maine.
                       wildland fire preparedness
    Each year the five land-managing agencies of the Departments 
prepare to prevent, detect, and take prompt, effective initial attack 
suppression action on wildland fires. In order to do this, we need 
trained and equipped firefighters and firefighting equipment. We 
maintain qualified firefighters through training and apprenticeship 
programs, and we have aggressive recruitment and retention programs. We 
maintain a number of facilities for firefighter housing and equipment 
storage.
    Firefighter safety is our highest priority. Firefighting is a high 
risk, high consequence activity, and the Forest Service and Interior 
have always had strong firefighter safety and training programs. This 
year, however, following the ThirtyMile Fire tragedy in July 2001, 
where four firefighters lost their lives, we have redoubled our 
efforts. As the Committee requested, the Forest Service has provided 
regular briefings on our efforts to improve firefighter safety and 
training. The ThirtyMile tragedy prompted an examination of the 
programs to identify areas needing improvement. The areas identified 
include managing firefighter fatigue, reinforcing use of the 10 
Standard Fire Orders and the 18 Watch Out situations, and developing 
training to avoid entrapment by fire. All of these improvements in 
training and safety are in place for this fire season. We are committed 
to doing everything we can to improve firefighter safety.
    We also purchase and maintain firefighter personal protection gear 
and engines, other vehicles, and contract for helicopters and 
airtankers. Preparedness also includes assisting other Federal 
agencies, Tribes and States with fire training programs, planning 
assistance, shared equipment use contracts, and support for interagency 
fire coordination centers.
    In 2001, we made a great start toward increasing our preparedness 
resources, thanks to the National Fire Plan funding. The Forest Service 
and the Department of the Interior treated 2.25 million acres to reduce 
fuel loads and protect priority communities at risk. We will continue 
this success in FY 2002 and collectively plan to treat 2.4 million 
acres. Together, we hired an additional 5,474 fire employees, for a 
total Federal wildland fire workforce of 17,633. We purchased 406 
additional engines, 56 additional dozers, contracted for 31 additional 
helicopters, and purchased or contracted for many other pieces of 
equipment and aircraft. Prior to the National Fire Plan, Interior 
sponsored 14 interagency hotshot crews (IHC) and the Forest Service 
sponsored 52. With the increase in readiness capability made possible 
by the National Fire Plan, DOI added eight additional crews. The Forest 
Service added 13 crews.
    In addition to our Federal firefighting crews, we call upon many 
other firefighting forces for assistance. Our working relationship with 
our State and local partners has never been stronger. Often, State and 
local firefighters are the first to respond to fire incidents. In 
severe fire seasons, State, Tribal, military, National Guard, Canadian, 
Australian, New Zealand and local firefighters are instrumental in 
fighting wildland fire. We rely heavily on these crews for support, 
especially the rural and volunteer fire department crews, which are the 
first line of initial attack in up to 90% of all wildland fires. With 
National Fire Plan funds, we were able to improve rural and volunteer 
fire departments' (RFDs) initial attack abilities with personal 
protective gear, equipment, and training. In many instances last year, 
these RFDs purchased equipment with our grant money, and immediately 
responded to wildland fires on Federal land, utilizing the new 
equipment or protective gear. The DOI assisted 1,445 RFDs last year by 
providing almost 10 million dollars in grants.
    The Forest Service provided over $138,000,000 to states, volunteer 
fire departments, and local communities to assist firefighting 
activities in 2001. With these grants our State and local government 
partners purchased fire equipment for local fire departments, developed 
hazard mitigation plans, treated 76,236 acres of hazardous fuels on 
private lands, accomplished community fire planning, developed market 
utilization of small diameter material removed through thinning 
activities, and conducted fire prevention and fire education training.
    Another important point to note is that the five land managing 
agencies have updated the majority of their fire management plans 
(FMPs) to be consistent with Federal wildland fire policy, with a goal 
to have all plans updated in 2004, if not sooner. The Department of the 
Interior has completed FMPs covering 92% of its land. The FMPs are 
important because they provide the guidance for fire management 
officers, line management officers and incident commanders to plan for 
future fire management decisions, and to make quick decisions when a 
fire incident occurs, as to the appropriate techniques and tactics for 
effective wildland fire suppression. Last year, 3.6 million acres of 
land nationwide burned, compared to 8.4 million acres in 2000. Fewer 
acres burned last year, even with heavy fuel loads and severe drought 
in many parts of the country. Although we cannot take all the credit--
weather was a significant factor--with the help derived from additional 
resources and personnel, we were able to keep more than 95% of the 
fires under 100 acres.
                       2002 fire season readiness
    With the forecast for a severe wildland fire season, each agency 
began early and continues to bring national fire readiness capacity to 
its highest level. To date, DOI has 4,845 firefighters and fire support 
personnel. The Department of Agriculture has approximately 9,000 
firefighters as we are still identifying these resources. Our combined 
goal is to have in place a Federal wildland fire workforce of over 
17,800 personnel and 1790 engines by mid June. This is an increase of 
6,326 personnel and 377 engines from FY 2000. When we realized the 
severity of the wildland fire outlook, we began to hire seasonal 
firefighters early and we are working to place firefighting crews and 
equipment in locations where they can be mobilized quickly and 
effectively.
    When local areas anticipate or experience above normal fire 
activity, the Departments have the authority, through what is known as 
``severity funding'', to provide suppression funds to those units so 
that they can bring in additional staff and equipment to improve 
initial and extended attack response capabilities and increase 
prevention activities. Already this year, the Forest Service has 
approved over $11 million for severity assistance; Interior has 
approved nearly $3.5 million in severity assistance. Federal wildland 
fire agencies have enhanced initial attack capabilities in Arizona and 
New Mexico by pre-positioning resources ranging from airtankers, to 
hand crews, to engines in strategic locations.
    Weather, fuels, and drought conditions all contribute to the number 
and size of wildfires. We will never be able to put out every fire 
every time, but we can reduce the number and the risk of wildfire over 
time.
                          reducing fuel loads
    Fighting wildland fire is only one part of addressing the long-term 
buildup of hazardous fuels in our forests and grasslands. Reducing the 
risks and consequences of severe wildland fires is a high priority for 
the Administration and Congress. Bipartisan Congressional support has 
provided the Forest Service and Interior with the necessary funding to 
increase the amount of acreage treated to reduce risks to communities 
and ecosystems. The importance of reducing fuel loads has been 
recognized for some time as an important issue. For example, studies 
performed in 1994 and 1996 recognized the issue. In 1996, a joint 
Forest Service and Department of the Interior wildland firefighter 
safety awareness study found that nearly 83% of all wildland 
firefighters identified fuels reduction as the single, most important 
factor for improving their margin of safety on wildland fires. As we 
stated earlier, the Forest Service and the Department of the Interior 
treated 2.25 million acres to reduce fuel loads and protect priority 
communities at risk. For the Department of the Interior, this is more 
than doubling prior accomplishments. We will continue this success in 
FY 2002 and collectively plan to treat 2.4 million acres. Continued 
bipartisan Congressional support for working with communities and 
interest groups are vital to firefighter and public safety, reduction 
of risks to communities, and to the implementation of ecosystem health 
goals of the National Fire Plan.
    This year, the Departments are beginning the development of a 
common interagency fire budget planning process that will better refine 
wildland fire management readiness resources. The process will provide 
all agencies with a uniform, performance-based system for identifying 
the preparedness resources necessary to deliver a cost effective fire 
management program. This system will be deployed by the 2004 fire 
season and will influence readiness decisions for the 2005 fire season. 
Some interim components may be online even earlier.
                                summary
    As stated earlier, the outlook is for a potentially severe fire 
season this year. The five federal land-managing agencies and our 
partners at the State and local level are doing all that we can to be 
prepared for the upcoming fire season. We will continue to do 
everything we can to ensure the safety of firefighters, communities, 
and resources. We appreciate continued bipartisan support from the 
Congress. We will continue to cooperate and communicate among Federal 
agencies, States, local governments, Tribes and interested groups and 
citizens to ensure the long-term safety and health of communities and 
resources in our care.
    This concludes our statement, Mr. Chairman. We would be happy to 
answer any questions you and the members of the committee may have.

    The Chairman. That is fine. Do not let that light cut you 
short. If you have anything more to tell us in your opening 
statement, please do so.
    Mr. Hartzell, go ahead.
    Mr. Hartzell. Thank you, Joel.
    Mr. Chairman, I am Tim Hartzell, Wildland Fire Coordinator 
for the Department of the Interior. Members of the committee, 
Mr. Chairman, as the signals began to come in that this was 
going to be a severe fire season, the two Departments began to 
actively initiate recruitment to bring fire readiness capacity 
up to its highest level.
    To date, the Department of the Interior has hired more than 
4,800 firefighters. The Forest Service has hired nearly 9,000 
firefighters, and we are still actively adding to those rolls. 
Our combined goal is to have nearly 18,000 firefighters 
available by mid-June. This is an increase of over 6,300 
personnel and nearly 400 engines from fiscal year 2000.
    Let me explain the significance of that just from the 
Department of the Interior's perspective. We have hired 4,845 
firefighters to date. The total number of firefighters we had 
during the fiscal year 2000 fire season was only in the 
vicinity of 4700. We have significantly been able to add to our 
readiness capacity with the moneys that we have through the 
National Fire Plan.
    Now, this spring our focus has been on coordinating to 
ensure that crews and equipment are in place where needed. In 
situations such as we are experiencing in the Southwest, when 
local agencies anticipate or experience above-normal fire 
activity, both Departments have the authority to use something 
called severity funding to provide suppression funds to those 
units so they can bring on additional staff or equipment to 
improve their initial attack and extended attack capability.
    To date the Forest Service has provided nearly $11 million 
to States and regions for severity assistance and the 
Department of the Interior has provided approximately $3.5 
million. What this has meant in Arizona and New Mexico is that 
we have been able to preposition resources such as air tankers 
or hand crews and engines in strategic locations to be as 
prepared as we can for a rather severe situation.
    No question, weather, fuels, and prolonged drought all 
contribute to the number and size of wildfires. We are never 
going to be in a position where we can extinguish all fires 
every time, but without a doubt we can reduce the number and 
risk of wildfires over time through a coordinated program.
    I would like to close by talking briefly about hazardous 
fuel loads. Mr. Chairman, your comments were very insightful 
and right on target. Firefighting is only part of the equation 
for addressing the long-term buildup of hazardous fuels in our 
forests and grasslands. In fact, because of our effectiveness 
in suppressing fires over many decades and our inability to 
actively manage forests and rangelands, we have added to the 
problem of fuels buildups and the hazards in our wildlands.
    Reducing the risks of the consequences of these severe 
fires is without question a high priority for the 
administration and Congress. We appreciate the bipartisan 
support you have provided both the Forest Service and the 
Interior Department with necessary funding so that we can 
increase the amount and acreage treated to reduce risks to both 
communities and the environment.
    The importance of reducing fuel loads has been recognized 
by scientists for many years. But to hear it from the folks in 
the line of fire is most telling. In 1996 the Department of 
Agriculture and the Department of the Interior commissioned a 
study on wildland firefighter safety. The number one factor 
that our frontline firefighters--in fact 83 percent of our 
frontline firefighters--concluded that the primary factor that 
was most important for improving their margin of safety was to 
increase the management and reduction of hazardous fuels.
    As I think Joel had stated earlier, last fiscal year, 2001, 
the two Departments treated nearly 2.25 million acres to reduce 
fuels and to protect priority communities at risk. Our goal is 
to continue this success in fiscal year 2002 and we 
collectively plan to treat nearly 2.4 million acres.
    In summary, I would like to say that the outlook for the 
fire season I think is fairly well known. Joel Holtrop has 
pointed it out quite vividly. The Federal fire management 
agencies and our State and local partners are going to do 
everything we can to be prepared for the upcoming fire season. 
We are going to do everything we can to assure the safety of 
our firefighters and communities' resources.
    We appreciate the continued bipartisan support from 
Congress. We will continue to cooperate and communicate among 
the Federal agencies, our State partners, our local 
governments, our tribes, our interested citizens and 
stakeholders to ensure the long-term stability and safety of 
our resources and communities.
    This concludes our prepared remarks, Mr. Chairman. We would 
be happy to answer any questions.
    The Chairman. Well, thank you both very much. Let me start 
with a few questions.
    One concern that we have is that the information that our 
committee staff has been given indicates that the agency is 
borrowing funds from its hazardous fuels reduction account to 
pay for emergency firefighting. However, after Congress 
reimburses you for the emergency costs it appears that those 
funds are not going back into the hazardous fuels reduction 
account.
    For example, in fiscal year 2001 the agency borrowed $37 
million from the hazardous fuels reduction to pay for emergency 
firefighting and after Congress reimbursed the agencies for the 
emergency expenses there were $11 million deposited back in 
that hazardous fuels reduction account. The remaining $26 
million was put in the fire preparedness account.
    Obviously, this causes a concern long-term as to whether we 
are putting the funds where they need to be and whether we are 
borrowing against the future here. If either of you have a 
response on what is going on and what needs to be done, I would 
be anxious to hear it.
    Mr. Holtrop. The hazardous fuels program last year did 
close the year with approximately $36 million remaining for 
projects that were not funded in fiscal year 2001. But when 
that is contrasted with the fire suppression activities and the 
costs of the fire suppression activities in 2001, there was not 
enough funding available for fire suppression and we needed to 
make up that funding for fire suppression both out of some of 
the remaining money in the fuel hazard reduction as well as in 
fire preparedness.
    It does indeed bring up concerns in the long term. It is an 
unfortunate situation that we wish we did not have to be in, 
but again we needed to cover our fire suppression costs.
    The Chairman. So can we anticipate that the administration 
will be asking for additional funds for the account that we 
have already reimbursed you for in order to compensate for what 
was used for other purposes? Or how do we get out of this long-
term trend here of sort of robbing Peter to pay Paul?
    Mr. Holtrop. Well, once again, in this fiscal year, with 
the severe fire season, as we have already documented in our 
discussions this morning, projections are that we may again not 
have sufficient funding in fire suppression to cover all of our 
suppression costs. If that is indeed the case, we will need to 
look for other ways to cover those suppression costs over time.
    We have a process in place in which we are going to look 
at--first of all, we are going to track our suppression costs 
closely and we are going to have projected suppression costs 
and we are going to know on a regular basis what is the status 
of the suppression cost funding for the year.
    Secondly, we are going to identify, if we do need to borrow 
funds, what are some of the program areas that we can borrow 
funds and that do not have a direct impact on resource 
programs. What are the things that we can do that has the most 
opportunity for us to accomplish our suppression costs with the 
least impact on organization and programs?
    Third, we are identifying those types of funds that have 
perhaps large out year expenditures or contract expenditures, 
things that we can borrow funds from that will not have a 
direct effect on this year's resource management activities. At 
the conclusion, if indeed we do need to borrow some of those 
funds, we would seek through the administration to seek 
Congress for reimbursement of those funds, because those are 
important programs that we do indeed want to reimburse.
    The Chairman. Let me ask about burned area restoration and 
rehabilitation. This is an issue. University of Arizona 
Professor of Fire Ecology Tom Swetnam states that ``Human 
communities are as much or more at risk from post-fire damage 
as from the fire itself.'' I guess a recent Department of 
Agriculture Inspector General report found that the Forest 
Service used national fire plan rehabilitation and restoration 
program funds on unrelated projects, that the agency is not 
monitoring the use of the burned area restoration and 
rehabilitation funds.
    Let me just read another sentence from that IG report. It 
says that ``Since appropriated funds are significantly less 
than identified needs, any misuse of these funds will only 
further reduce the Forest Service's ability to restore and 
rehabilitate burned areas.''
    In fiscal year 2001, the first year of the national fire 
plan, the Forest Service got $141.6 million for the program. 
This year the Forest Service requested $4 million rather than 
$141 million. What is there about this part of the national 
fire plan that is not supported by the administration? 
Obviously, we have got a disconnect between what we have in the 
national fire plan and what you folks are requesting money to 
implement. Could you explain what is going on here?
    Mr. Holtrop. First of all, let me agree with your statement 
that the rehabilitation and restoration of burned lands is very 
important and we do need to make sure that we focus appropriate 
attention on that because there could be catastrophes that 
follow catastrophes when there is a fire if we do not take 
appropriate steps to rehabilitate those areas.
    Of course, some of the funding in the 2001 national fire 
plan was in direct response to the 2000 fire year and the 
extraordinary fire year that we had in 2000, with some 
extraordinary steps that needed to be taken in response to 
that. As we put together budgets that look at what our overall 
needs are in the national fire plan, some of the types of 
things that we need to balance and weigh in the various aspects 
of all of the important components of the national fire plan, 
and those need to be weighed recognizing what has happened and 
then projections for what is happening in the coming year as 
well.
    The Chairman. So do I understand that, relative to the 
other priorities you had to request funding for, this was lower 
down? Is that what you are saying?
    Mr. Holtrop. Certainly compared to the 2000 fire season and 
the types of restoration work that we needed to do in the 
aftermath of the 2000 season, that was the determination we 
needed to make, yes, sir.
    The Chairman. I have used my time. I will defer to Senator 
Murkowski if he has questions at this point or an opening 
statement.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Well, thank you very much, Mr. Chairman. 
I am sorry, but I had a 9 o'clock engagement with some folks 
that feel very strongly about CAFE standards, which is far 
removed from fire concerns today.
    But I recall a hearing that we held out in Montana a couple 
of years ago with Senator Burns. It involved the inability of 
the decision making to take place on the scene. For example, 
there was one particular case where a tractor, a cat, was 
poised to cross a creek and there was a concern about the 
effect that it would have in creating turbidity of the water 
and as a consequence that individual who was on the scene as 
the command of the fire did not have the authority to move that 
cat across the creek, so as a consequence the fire moved on and 
did devastating damage.
    Another occasion was an individual who refused to provide 
access across his private land and as a consequence the fire 
moved into an area where, had they been able to move into the 
private land area, why, the individual might have been able to 
stop that from the spread.
    My concern, Mr. Chairman, is in the interest of combatting 
these wildfires you have to make decisions on the spot and 
there should be, I think, an authority given to take 
appropriate action in some cases, whatever is necessary. Until 
we reach a point where we feel comfortable that indeed the 
decision making process has to be based on the facts on the 
scene--and I am sure that we can cite other areas, and we might 
even go back to the Los Alamos issue, as far as decision 
making.
    I am not sure just how we are going to resolve this, but if 
it is going to take legislation to give them the authority I am 
supporting legislation to give them that authority. We have got 
some maps over here that identify the potential exposure 
associated with the drought and we have got charts that are 
prepared by the Department of Agriculture on the amount of land 
that normally has higher stream flows.
    But to a large degree, at least in some cases, it is a lack 
of decision making by the landowners as to what to do to reduce 
the hazard. In my State we have the spruce bark beetle and you 
have got about three levels of management. You have got the 
Federal Government, the Forest Service; you have got to a 
limited degree the State; in my case you have partial ownership 
by the Native regional corporations; and then the individuals.
    Unfortunately, the Federal Government through the Forest 
Service seems to be motivated by a consensus. They will hold a 
public town hall meeting to try and generate a consensus about 
what to do with the spruce bark beetle and the infestation and 
the realization that you are creating areas where wildfires can 
be determined, as opposed to making the decision on what is 
best for the forest health. Do you follow me?
    As a consequence, they do not get a decision and nothing 
happens. The State to a lesser degree kind of follows the 
Federal procedure, and then we have the private landowners, 
maybe it is the Native corporations, that are trying to manage 
their land appropriately. Then the best manager, of course, are 
the private individuals, who recognize that the best thing they 
can probably do is go in and clear cut the area while there is 
still enough value in the timber to move it out and make chips 
out of it.
    Until we address decisions made on best forest management 
practices--and maybe I am speaking to the choir here, but we 
have to have a basic premise of how we are going to manage this 
problem, and as a consequence to suggest you are going to get a 
consensus on decisions when some people say you leave things 
alone and others say you take them out--if anyone here, and you 
have heard it time and time again, has an illness, you go to 
the best physician you can find and you abide by it. I think 
that is what we have got to do in the forest.
    I would ask the balance of my statement be entered in the 
record, and I want to compliment the staffs on the chart. But I 
did want to bring up my frustration as former chairman of this 
committee and one who has taken part in these discussions time 
and time again. If we do not have our Federal agencies 
coordinated to make decisions based on a criteria that is in 
the best interest of the renewability of the resource we are 
just holding hearings and wasting our time.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Murkowski follows:]
Prepared Statement of Hon. Frank H. Murkowski, U.S. Senator From Alaska
    This hearing is intended to find out how prepared our federal fire 
fighting agencies are for what looks like another challenging year. As 
of yesterday almost 471,000 acres of federal land have been burned in 
this very young fire season. As a comparison 481,000 acres had been 
consumed by this same date last year and 750,000 acres in FY 2000, that 
horrific year when Los Alamos burned. To date we have already lost more 
than 50 homes and structures in the first two months of this season.
    While we need to know if our federal fire fighting agencies are 
prepared for this season, we must all understand that the conditions in 
the West, both in terms of drought and the ridiculous fuel loads that 
we in Congress have allowed to build up on those lands over the years, 
will result in conditions that make the situation impossible for our 
fire fighters.
    I know Senator Cantwell is here today to decry the senseless deaths 
of four fire fighters in her State last year. And she is right: they 
were senseless. But we also have to look ourselves in the mirror and 
ask what we've done to reduce fuel loads on our federal lands. I hope 
she will remember the testimony we received last fall from Mr. Phil 
Schaenman of the Tridata Corporation. He testified that most of the 
fire fighters his organization interviewed in Tridata's Wildland 
Firefighters Safety Awareness Study believe that more harvesting and 
removal of dense fuels would make their jobs safer.
    Let's look at the conditions as they now exist. The first map is 
the National Oceanographic and Atmospheric Administration's drought 
prediction map through this coming July. Look at the areas of red (high 
drought)--not an encouraging picture.
    The second chart is a more detailed look at stream flows for April 
of this year prepared by the Department of Agriculture's Natural 
Resources Conservation Service. The amount of land that has only 50% to 
70% of normal stream flow and less than 50% of normal stream flow (in 
red). This map is an indication of the fuel moisture we can expect this 
summer. It is very clear that we are collectively in deep trouble.
    In my own state of Alaska, the collective effects of the recent 
spruce bark beetle pandemic are still with us. The Kenai Peninsula has 
been the hardest hit, but the problem extends up into the Anchorage 
bowl and the upper Copper River area, near Glennallen. While the state 
and private landowners have made significant efforts to address fuel 
loading on their lands, Federal land managers have done little to 
correct the problem. Worse, by limiting their response to setting 
``controlled burns,'' they have courted disaster--the glaring example 
being the Kenai Lake fire set by the Forest Service last year that 
burned out of control, threatening homes and communities.
    In closing, Mr. Chairman, let me remind you that more than 40% of 
the trees on your National Forests are less than 13 inches in diameter 
and will need to be thinned to improve the fire situation on those 
lands. When we pass laws that discourage the use of Stewardship 
Contracting, or biomass energy grants we (Congress) have to take a hard 
look at ourselves and consider whether we are contributing to the fire 
threat. When we ignore the underlying problem of sick and overstocked 
forests because people in the radical environmental movement tell us 
that no management is better for the environment--it is Congress that 
is failing our forests, our rural communities, and the American public.
    I fully expect we will be back here in the fall holding a hearing 
about yet another fire tragedy, the loss of more fire fighters and/or 
another town or two and I expect some of us will want to ignore the 
fact that this Congress has continually failed to address the 
underlying problem.

    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you.
    Gentlemen, I am troubled by your comments, because it just 
seems to me that this is still pretty much business as usual. I 
want to be specific about what I am talking about here. If you 
look at the cycle in this area, what you have seen historically 
is that government dawdles on fuels reduction and restoration, 
then we have a big fire and we have to go send all these very 
patriotic firefighters out to play catch-up ball.
    As far as I can tell, we have given you several billion 
dollars to break this cycle, to come up with a different 
approach, to put more focus on prevention, to put more focus on 
fuels reduction and restoration, and it just seems to me to be 
pretty much business as usual.
    Let me run through the Oregon numbers on this. In Oregon 
last year the Forest Service spent about $86 million on 
wildfire suppression, but only $17.5 million for hazardous 
fuels reduction. It seems to me that this is a classic case of 
the skewed priorities we are seeing in this area and this is 
what the Congress wanted to reverse on a bipartisan basis with 
respect to the fire plan.
    So maybe you can share another view on this, but it just 
seems to me that in Oregon, for example--and this is going on 
all over the country--if you reverse those numbers we would be 
in a much stronger position to deal with this very serious 
problem for the rural West and specifically have less of a need 
to send these courageous firefighters out there to deal with 
yet another conflagration.
    Gentlemen, what is your reaction to this?
    Mr. Hartzell. Senator, I think our progress last year 
indicates a significant shift in our thinking. We on the 
Interior side nearly doubled our production in the hazardous 
fuels program. We used the $10 million that the Congress 
provided to us in the Rural Fire Assistance program to target 
rural fire departments, over 1400 of them, so that they could 
improve their capacity for preparedness and educate their 
publics about prevention.
    We put a significant amount of our funding into the 
Firewise and the community education program so that we could 
increase the capacity of local communities to break the fire 
cycle and take corrective action to reduce fuels and public 
hazards. I think our record shows that in fiscal year 2002 we 
are again committed to increasing the level of hazardous fuels 
treatment.
    I think the way we have gone about the program is worthy of 
mention. We have a requirement that in each of our States that 
the fuels hazard reduction program not be conducted in a 
vacuum, but that we need to try to work in a seamless fashion 
among all the Federal agencies across all lands, with our State 
foresters and with other partners, and that fuel treatments are 
developed at the State and local level consistent with national 
priorities, and that there be a great deal of collaboration as 
to finding what the highest priorities are for fuels treatment.
    Senator Wyden. Why do we not hear from the Forest Service.
    Mr. Holtrop. Senator, I would like to ask Jerry Williams, 
our Director for Fire and Aviation Management, to help address 
this question.
    Mr. Williams. Thank you.
    I agree with you, this issue is really about breaking the 
cycle. I would come back, though, to the condition of the 
forest. The accumulated fuels that we are seeing out there have 
severely diminished our decision space. The onset of drought, 
for instance, in New Mexico this year virtually precluded many 
treatment options that would use or rely on prescribed fire. As 
a matter of fact, it was only a few days ago that the Southwest 
in New Mexico suspended prescribed burning, given the severity 
of the situation.
    What I am telling you is that they are pushing the risk to 
the limit in an effort to reduce fuels. I would like to put 
this in context a little bit. In New Mexico many of the dry 
forest types that we are fighting fire on right now, at the 
turn of the century those were dominated by only about 50 trees 
per acre. That same site today will often carry approaching 
1,500 trees per acre. The biomass alone is a significant fuels 
problem.
    But another dimension of this problem is the transpiration 
that is going on. As those trees move water out of the soil, 
they are almost inducing drought. Mechanical thinning, 
stewardship contracting, electric cogen, anything that we can 
do to accelerate the rate of fuels treatment is clearly what we 
need.
    Many people will say that we need to continue to rely on 
prescribed burning. In my view we are at the very limits of 
risk with most prescribed burning in most dry forest types 
across the country, and particularly in the West.
    Senator Wyden. Again, you are making the case for a change 
in priorities, but I want you both to know that in my State the 
numbers do not back up what you are saying. I cited the numbers 
for the Forest Service. The Department of the Interior, the 
numbers are even worse. We basically have $8.5 million spent on 
fuels reduction, $36 million spent on fire suppression.
    You all are talking one game and you are doing something 
else. I think that is unfortunate. We are not going to be able 
to break this cycle with this skewed set of priorities you have 
got. I think what you have said sounds very good, but you are 
not backing it up with the specific numbers. The specific 
numbers make the case that the Federal policy after a 
bipartisan fire plan where Senator Bingaman and Senator 
Domenici and others did a lot of good work, the numbers show 
that it has still been business as usual.
    My time has expired. Hopefully we will get another round, 
but I thank you for this important hearing, Mr. Chairman.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    What are the criteria and priorities for fuel reduction? 
What do you use for a criteria as to where you can best spend 
your money?
    Mr. Holtrop. Well, Senator, there are a lot of criteria 
that we use to determine where we should best spend our 
hazardous fuels reduction money. Obviously, one of those 
criteria that we are going to use is where there are 
communities at risk and that is one of the places that we are 
going to focus our attention on.
    There are also criteria that have to do with other resource 
values that might be at risk, such as watersheds that provide 
domestic water supplies and those types of things, are also 
going to be areas that we are going to focus our attention on. 
We are going to also make sure that, as Tim Hartzell described, 
we are going to make sure that as we determine where those 
areas are that we are going to do so in as seamless a fashion 
as possible with other Federal partners, with our State 
partners, and our local government partners as we identify 
where it is that we need to be focused.
    Senator Thomas. Do the various forest units have a list of 
priorities?
    Mr. Holtrop. Yes, we do.
    Senator Thomas. You could produce the priorities on the 
Medicine Bow in Wyoming?
    Mr. Williams. I believe we could. Most of the geographic 
areas across the country have developed out year plans where 
they are directing fuels treatment work. This is--I am afraid 
that many times fuels dollars are directed where there is also 
a willing community. We have several cases across the country, 
especially where mechanical thinning is involved, where 
communities, even in the face of very recent devastating 
wildfires----
    Senator Thomas. Like Teton County, Wyoming?
    Mr. Williams [continuing]. They do not want it, they do not 
want hazardous fuels reduction activities occurring if it 
involves mechanical thinning treatments.
    Senator Thomas. Do they want to fight the fire when there 
is one?
    Mr. Williams. Pardon?
    Senator Thomas. Do they want to fight the fire, though, 
when there is one?
    Mr. Williams. I do not think they want that, either, 
Senator.
    Senator Thomas. Oh, come on. We had one there, they were 
going to burn the houses down if it goes more. They have to 
fight the fire, you know that. Yet there is resistance to doing 
thinning.
    Mr. Williams. Exactly.
    Senator Thomas. I think that you are going to have to make 
a decision on that.
    There are 17,000 firefighters. Is that full-time 
employment?
    Mr. Williams. That includes full-time and temporary 
employees.
    Senator Thomas. How many are full-time? What does a 
firefighter do year-round?
    Mr. Williams. In many parts of the country, they are 
mobilized across the country. We have people that are in the 
northern States right now in New Mexico fighting fire. The fire 
season the last few years has been virtually year round. 
Someplace in the country, something is on fire.
    Senator Thomas. Yes, but that really is not, not much. 
There is a season, a fire season, pretty much, is there not?
    Mr. Holtrop. Those numbers also include others, fire 
management personnel that are also responsible for planning, 
both planning for our preparedness and planning our fire 
management plans on the individual units.
    Senator Thomas. It is a tough thing to be economically 
feasible to have firefighters on all the time, is it not? You 
have to have them, but it is a pretty tough deal.
    Mr. Holtrop. That is why many of the firefighters are not 
permanent, year-round employees.
    Senator Thomas. I see. What about the opportunity for 
private foresters, forest people, to cut the timber in a 
private situation and make some money maybe, and then it will 
not cost you anything? There is resistance often to letting 
those private people come on the land.
    Mr. Holtrop. Are you referring to--well, whether you are 
referring to those that are coming on the public lands or on 
the private lands, we do recognize that an important part of 
getting on top of this issue, as Jerry Williams stated a few 
minutes ago, that when you look at the magnitude of the 
biomass, the hazardous fuels buildup that we have, we need to 
use whatever rules we can at our disposal in order to 
accomplish the work that needs to be done.
    Senator Thomas. I understand that, but it is my impression 
from what I have heard that you are reluctant to let private 
timber harvesters go on and do it. If you had the way to 
control your contracts, it would seem to me that would be the 
most economical way for you to----
    Mr. Holtrop. In many cases it is the most economical way 
for us to accomplish some of this work. We also find that some 
of the hazardous fuels reduction work that we need to do over 
time also includes that we need to focus on some of the size of 
material that is not as economically desirable in some of those 
areas.
    Senator Thomas. I understand. I suggest to you that where 
there is an opportunity and where it is economically feasible 
that you do some contracting in the private sector, which not 
only is less expensive, but also can be done in more magnitude 
at the same time. I hear a lot of resistance to that from the 
Forest Service.
    Thank you.
    Senator Murkowski [presiding]. Whoever is next is next.
    Senator Domenici. I will try to be quick, Senator.
    First, do you have now a policy with reference to post-burn 
activities? We are still beset by people complaining as they 
drive by a forest that was burned 18 months ago with the dried 
trees standing. The fire has burned out the underbrush. We even 
have viewed that in some areas of New Mexico where there was a 
lumber mill not too far away that is about to close up shop and 
it looks like these trees could be used, and month after month 
after month--now some of them are up to 24 months and pretty 
soon they will not be good for anything.
    Is there a policy or are we being ordered around by courts 
and lawsuits with reference to it? Could you tell us briefly, 
please?
    Mr. Holtrop. Again, our intentions following a fire are to 
do whatever rehab and restoration is desirable and appropriate 
for us to do in those cases. There are times in which the 
salvage of the dead material is an economically viable way to 
go about doing some of the restoration, as well as providing 
opportunities in the local communities. All of those types of 
activities require us to go through the various processes that 
we need to in terms of environmental analysis and working with 
the community.
    Senator Domenici. Yes, I understand. But let me ask you, 
what you are saying is that you do not have one set pattern for 
each burn in terms of what you will do. But is there a policy 
on either of our Departments against cutting the trees and 
using them? Either of you? Tim?
    Mr. Hartzell. No, there is no policy against cutting trees. 
The Department of the Interior policy is to first immediately 
stabilize the site so that we do not destroy watersheds, we do 
not put silt in a stream that is a municipal watershed, and we 
prevent erosion to keep the soil off of roads.
    Our second priority after immediate stabilization then 
would be to begin to rehab the site and to initiate long-term 
restoration of that ecosystem, for a whole variety of reasons, 
to maybe begin reforestation, to get productive range forage, 
to preclude the spread of noxious and invasive species.
    Those decisions are made at the local level. They use the 
NEPA process Mr. Holtrop was talking about, and there are no 
sideboards on the types of stabilization or rehab activities 
that the field offices cannot consider. It has to be done in an 
open process and utilize the NEPA.
    Senator Domenici. Do you as the chief executives in this 
area, do any of you have a philosophical approach that says we 
do not cut trees after a burnout just as a matter of 
management? Do any of you have that philosophy?
    Mr. Holtrop. No, sir.
    Senator Domenici. How about you, Mr. Hartzell?
    Mr. Hartzell. I have not heard that expression from any of 
my colleagues, certainly not me.
    Senator Domenici. I did not ask you that. You are the boss.
    Mr. Hartzell. No, not me.
    Senator Domenici. How about you?
    Mr. Holtrop. No, I do not.
    Senator Domenici. You do not have a philosophy that you 
must leave the trees there for the wild animals rather removing 
them?
    Mr. Holtrop. No, sir.
    Senator Domenici. Somebody asked a question about how do 
you select priorities. When we prepared the legislation that 
started on the Senate floor, when it went to conference and got 
the acceptance of the administration, one of the sticking 
points was a provision that required the Forest Service to go 
through its forests and determine where buildings and/or 
improvements were vulnerable to a forest fire, and you had to 
list them all.
    I understand that has been done. If it has not been done, I 
wonder why. If it is done, do you use it?
    Mr. Williams. If you are talking about the communities at 
risk list----
    Senator Domenici. That is correct.
    Mr. Williams. Yes.
    Senator Domenici. That is finished?
    Mr. Williams. It is pretty well complete, as I understand.
    Senator Domenici. Mr. Hartzell.
    Mr. Hartzell. Senator Domenici, it is complete, but it is a 
work in process. We work with the local communities and the 
State foresters. That list is continually reviewed. Projects 
are judged against it and if a community was fortunate enough 
to have all the necessary work done around it to make it safe 
and mitigate the hazard, it would come off the list and another 
community would replace it.
    Senator Domenici. Somebody alluded to a priority should be 
watershed. We have the city of Santa Fe. Did you say anything 
about that, Senator Bingaman?
    The Chairman. Not specifically, no.
    Senator Domenici. Let us just take it for a minute. Just 
yesterday a fire started up on the way to Las Vegas, which is 9 
miles direct from the Santa Fe forest, where I am from, which 
feeds the small lake that is at the end of an arroyo with a dam 
on it. That is a substantial portion of the city's water 
supply.
    We have all concluded that if that forest burns that water 
supply will be ruined because there is no way currently to 
retain the aftermath of the fire. It will all go down into the 
water and the water will change, obviously, from excellent 
drinking water to something nobody would drink or be able to.
    Is this forest something you have on a priority list? If 
so, are my figures correct that what we are doing now will take 
us 15 years to finish at the pace we are on now and the dollars 
we are spending now?
    Mr. Williams. I believe that that project is on the 
region's priority list. This is an area a lot of us are 
familiar with. I have been in this watershed. One of the things 
that we are concerned about is some of the prioritization 
criteria with the fuels money, should that be directed 
exclusively to the interface? I am very concerned about many of 
the attributes that these communities depend on, watersheds 
being one very important example.
    Senator Domenici. Well, listen. I know this is far more 
complicated than I could understand, but I would just like to 
ask you, would you take a look at the current plan to 
rehabilitate that forest and tell the committee how long it is 
going to take to fix that watershed so that you will not have 
the possibility of a fire resulting in the destruction of that 
water supply? Could you do that within a reasonable time so we 
might share it with our people?
    Mr. Holtrop. Yes.
    Senator Domenici. And include in it how much you are 
spending and whether you are going to up that to get this done 
quicker. I think my arithmetic is just straight line, if you 
spend what you are spending now it will take 15 years. But I am 
not sure that that kind of arithmetic is appropriate. Maybe you 
were going to do something different, but I think we ought to 
know. It is a very serious problem and we would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Holtrop. Senator, we will be happy to do that for you. 
I would also say, like Jerry just said, that we do recognize 
that as one of the highest priority watersheds that we need to 
be paying attention to.
    Senator Domenici. Fine. Thank you.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Murkowski. May I just ask that a statement by 
Senator Craig be entered in the record. And I am going to 
submit questions, written questions to the witnesses, and I 
would ask them to respond as they see fit.
    Thank you.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    Chairman Bingaman, I want to thank you for holding this hearing and 
I want to thank each witness from the Administration who has come here 
today to help us assess our readiness for what looks like what could be 
yet one more in a series of disastrous fire seasons.
    Given Senator Murkowski's opening statement, I am not going to 
dwell on the drought and fuel conditions that we face. I expect we will 
get plenty of understanding from the fire experts who will testify 
today.
    What I want to focus on is a blind spot in our perception. A blind 
spot that we in Congress have when it comes to the health and vitality 
of our federal forests. Over the last several months this blind spot 
has become painfully apparent. During both the Farm Bill debate and 
then again in the debate on the Energy Bill we adopted forestry 
language that failed to take advantage of opportunities to improve the 
health and condition of our federal forests.
    In the Energy Bill we had to craft last minute language to correct 
definitions of biomass in the Renewable Energy Portfolio. Fortunately, 
we largely corrected the language which would have limited to use of 
renewable energy portfolio programs on federal forests. I appreciate 
the work that the Chairman's staff undertook to help correct these 
mistakes.
    In the Farm Bill conference Senate Democrats rejected our own 
Senate passed version of Stewardship language because the House 
negotiators wanted a compromise. Thus, the much needed authorization 
for additional Stewardship Contracting authority and a Farm Bill 
biomass grant program were lost. The Senate Democrat's hard line 
approach to these issues resulted in at least a dozen other important 
forestry related provisions being lost. Including: State Forest 
Stewardship Coordinating Committees, Adaptive Ecosystem Restoration 
programs, parts of the Chesapeake Bay Program, an Office of Tribal 
Relations for the Forest Service and perhaps the most troubling, a 
program to deal with Sudden Oak Death Syndrome which threatens 
California's magnificent Oak Forest savannas.
    Mr. Chairman, over the last five years we have burned more that 
30.3 million acres, approximately equal to one-half of the area the 
Clinton Administration attempted to set-aside in its Roadless Policy to 
``protect ecosystem health and wildlife values''. So far this year we 
have already burned 470,000 acres and the maps we will see today tell 
us we are in for perhaps the worst fire season we have seen in the last 
50 years.
    Mr. Chairman, I don't think many of my fellow Senators know this, 
but fully 80% of the citizens in our western States are very concerned 
or somewhat concerned about wildland fires. What we in Congress better 
learn quickly is that the two leading concerns we are facing are the 
loss of wildlife habitat and the loss of homes and property. For those 
of my friends that keep saying we have to put all our efforts into the 
wildland/urban interface, I am here to tell you we are missing the 
point.
    With an accumulation of low water years and a looming drought, fire 
is a natural topic for all of us to think about. With the combination 
of drought and increased fuel loads, once again our public lands are an 
easy target for catastrophic fires.
    Fire is a natural part of any ecosystem. It stimulates growth, 
maintains the understory, and creates diversity. All of these aspects 
are healthy characteristics of a thriving forest. However, when fire is 
suppressed and active management activities (thinning, prescribed 
burns, etc.) that mimic fire behavior are ignored, this is a 
prescription for disaster. The neglectful management practices of the 
past will continue to plague our public lands unless we pursue active 
management practices that result in a balanced ecosystem.
    I will work with the Bush Administration to help provide funding 
for the fire budgets of both the Forest Service and Bureau of Land 
Management. In order to prevent devastating fires, the agencies need 
the resources and flexibility to make management decisions that 
maintain our public lands. The spiraling circle of increased fuel loads 
create catastrophic fires, contribute to declining watersheds, increase 
sedimentation and decrease water quality, and add to the demise of 
fisheries must be stopped.
    I am also happy to see this Administration worked so hard with our 
Western Governors to develop their Memorandum of Understanding and 
their Ten Years Strategy for dealing with the 70 million acres of 
western forests that are at high risk to catastrophic fires and insects 
and disease. To that end, today, Senator Feinstein and I have 
introduced a Senate Concurrent Resolution to the House of 
Representative's concurrent resolutions Number 352. When local, State, 
and Federal Agencies work to develop joint plans to deal with problems, 
I believe we in Congress should recognize those efforts and do 
everything we can to assist.
    The point is, Mr. Chairman, we cannot save all of the wonderful 
forest attributes by building defensible space around our communities 
and towns. We in Congress need to rethink our strategy and start 
treating the entire ecosystem, not just those parts we think the 
environmental hardliners are willing to allow us to work in. When it 
comes to federal forests, our experience in the Farm Bill and the 
Energy Bill are but a sign our tunnel vision on these problems. We are 
failing the American Public, our forests, and our communities.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Before I get to 
the specific focus of this morning's hearing, I want to thank 
you for mentioning the Washington Post article this morning. 
The paper, the headline paper, shows that ``Enron Manipulated 
California Crisis.'' Mr. Chairman, I can guarantee you the 
State of Washington suffered from that same crisis and possible 
manipulation of prices. We have asked for a FERC investigation 
of that.
    This has caused great damage in the Northwest, where we 
have seen everywhere from 85 percent increases in electric 
rates and contracts that were signed with Enron for 8 and 9 
years. So the Northwest is definitely suffering from this 
potential manipulation.
    I applaud you for suggesting this morning that this 
committee may hold further hearings on this. I think this is a 
critically important issue for my State, and I thank you for 
mentioning it, and for the further oversight of the committee.
    Mr. Chairman, this hearing I believe is very important in 
discussing the preparedness of the Forest Service and 
Department of Interior for the 2002 fire season. But I think it 
is important that we take a step back because last year was a 
particularly devastating season for us in Washington State. On 
July 10, near a town called Winthrop, in the midst of the worst 
drought on record in our State, the Thirty Mile fire burned out 
of control and four young firefighters were killed.
    Sadly, these young men and women did not have to die. In 
the words of the Forest Service in its own report, ``The 
tragedy could have been prevented.'' We know that the 
firefighting business is dangerous, but despite its inherent 
dangers we seem to think that the Thirty Mile fire is something 
that can be responded to in pushing memos and papers around.
    It is very important, I believe, in the reports that were 
issued that, first, we have accountability of the firefighters 
on the line all the way up to the chief; second, that training 
of the firefighters puts safety first; and third, that we have 
an independent and consistent review of the incidents in which 
those safety rules have been broken and whether or not they 
have resulted in these fatalities and what we are going to do 
to fix them.
    These are the conclusions that were reinforced in an OSHA 
investigation released in February that found the Forest 
Service had committed two serious and three willful violations 
of employee safety during the Thirty Mile fire, even stronger 
citations than those handed down after the Storm King fire in 
1994, in which 14 Federal firefighters died.
    To me, this indicates that we have taken a step backwards 
since Storm King and obviously what we have done since the 
Thirty Mile fire to implement or change the culture of the 
Forest Service as it relates to these very important issues. So 
first I guess my question is, this committee and the Senate 
took action in putting language into the Agriculture bill that 
said that the Forest Service investigations of these fires 
should be done by an independent investigator under the U.S. 
Department of Agriculture. That passed out, with the favor of 
this committee, passed out of the Senate, and was killed in 
conference.
    So first and foremost I want to know, does the U.S. Forest 
Service support that language of an independent investigation 
in the Department of Agriculture?
    Mr. Holtrop. The Department did not object to the review by 
the Inspector Generals in the farm bill.
    Senator Cantwell. So you will be supportive of legislation 
that I introduce separately?
    Mr. Holtrop. Since we did not object to that in the farm 
bill, if it is similar language, obviously I cannot take a 
position for the Department on a bill that is not introduced 
yet, but we do not object to the oversight.
    Senator Cantwell. Well, we are going to get this 
introduced, and it is a great mystery to the public, to people 
in my State, and I think in other places why this language did 
not go through. Somewhere, somebody behind the scenes was 
objecting. I hope it was not the Forest Service.
    Mr. Holtrop. It was not.
    Senator Cantwell. I hope that we can bring light to this 
issue in separate legislation. I know that my colleague 
Congressman Doc Hastings is going to introduce similar language 
in the House and we are going to have a bipartisan effort to 
draw attention to this issue, because accountability starts 
first.
    Second, I am interested in understanding as we approach 
this fire season and preparedness, in looking at the report 
that you have given to Congress on the implementation of the 
recommendations since the Thirty Mile fire, they look very 
similar to the Storm King recommendations. I have a feeling 
that we are pushing paper around at a time when people have 
lost their lives.
    How are you going to assure people that these are real 
management and cultural changes and not just a memo or a 
directive that was sent to individual employees within the 
Forest Service?
    Mr. Holtrop. Senator, I very much appreciate that question, 
and I appreciate your ongoing interest in this subject. We are 
also concerned that we do not just take steps that are just 
pushing paper around, that are saying safety is first, but 
without demonstrating that safety is the most important aspect 
of firefighting from our perspective as well. Some of the types 
of things that we are doing to help ensure that it is more than 
just words is that we are making sure that our administrators 
at every level of the organization are hearing this message and 
are being told that it is our expectation that our district 
rangers, that our forest supervisors, are talking to and 
spending time with their incident commanders, both that are 
assigned to their units on a regular basis or are assigned to 
their unit during an incident, that they continue to have 
interaction with them and are asking and focusing on what are 
the safety concerns and are the safety concerns being taken 
care of.
    Every meeting that we have with our firefighting personnel, 
we are stressing this. I have been at several meetings myself 
personally in which I have talked to our lead agency 
administrators at the field level and had discussions with them 
about asking them and insisting that they take personal 
attention and accountability for making sure that that is being 
paid attention to.
    I know that Mr. Williams has had similar conversations with 
the incident commanders. The Chief of the Forest Service has 
met with all of our incident command team leaders, talking to 
them about the importance of this. It is our intention to have 
this be something that we are focusing on, more than just 
words.
    Senator Cantwell. What if the rules are broken? Is someone 
going to lose their job? People lost their lives here. Yet no 
one loses their job over the fact that these rules are not 
implemented, and they are the same recommendations after Storm 
King. So now I am supposed to go home and tell the families of 
Tom Cravens, 30 years old, Karen Fitzpatrick, 18 years old, 
Jessica Johnson, 19, and Devon Weaver, 21, I am supposed to go 
home and tell those families: Well, here is what has happened 
so far; a bunch of memos have been written and the language 
that would have given us direct oversight got killed in the 
House by we do not know who.
    So they want to know that these same recommendations--I 
know my time is up, Mr. Chairman, but this is a critically, I 
believe, important issue, given the droughts that are happening 
in the West, the likelihood that it is going to be a tumultuous 
season, the fact that these safety rules and implementation I 
believe need to be a cultural change with accountability where 
people are going to lose their jobs if they are not 
implemented. Otherwise, other people are going to lose their 
lives.
    Mr. Holtrop. Senator, there is an administrative review 
that is nearing conclusion, that is looking at the events of 
the Thirty Mile fire. I would also like to just mention that 
the oversight by an Inspector General, whether there is 
legislation passed or not, that is something that is always an 
option that we can choose to use if there is a situation that 
we think that that is an appropriate thing.
    Perhaps we need to work with you and others to determine 
whether that is an incident where we might want to ask for an 
Inspector General oversight on a specific incident.
    Jerry, do you have some additional things?
    Mr. Williams. Just a couple of comments. On the issue of 
accountability, the Chief of the Forest Service has made clear 
with all of us that he expects accountability to occur on the 
fire line as safe practices rules are violated, before somebody 
gets hurt. We are putting all of that in motion this year and 
have been working on that the last several months.
    Two areas that we are focusing a lot of attention on right 
now besides the meetings, besides the backup to crews directly: 
one has to do with establishing fire danger risk thresholds for 
every unit across the United States, and that is Forest Service 
and DOI working together. That puts in place the mechanisms for 
managers to beef up oversight when fire danger escalates.
    The other area we are putting a lot of energy in right now, 
and we will be sharing the details with committee staff this 
Friday, has to do with firefighting safety compliance models. 
We are borrowing models from the aviation industry that will 
get at some of the behavioral issues that we are trying to 
overcome here.
    Senator Cantwell. Well, Mr. Chairman, I know my time is up, 
but hopefully we will either have another round or--I am glad 
to see you are looking at the private sector. OSHA regulates 
the private sector on safety issues. You could enter a 
partnership with OSHA to make sure that there is additional 
oversight. I do not know if you are going to agree to do that 
as well or whether you believe OSHA should have mandatory 
oversight, because I guarantee you then these safety 
implementations would be made, just as the private sector has 
had to be accountable.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kyl.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman.
    I think, gentlemen, you can see there is a fair degree of 
frustration over a variety of different problems here. The 
problems that Senator Domenici and Senator Cantwell discussed 
were different from those that were discussed earlier by 
Senator Wyden, and I think the chairman also had some comments 
on that and I will.
    But it is getting to the point where members of the 
committee are finding it frustrating to the point that we are 
going to have to legislate separate solutions to these 
problems, which is not the way it ought to be done. It ought to 
come from the administration. It ought to be in the budget.
    If you look at that area up there, you know the drought 
conditions, you know the conditions in my State. We started our 
fire season in March this year. We have had over 50,000 acres 
already burn on Federal land in Arizona, at least 81 fires on 
Federal land. It is the dryest winter in 104 years in Arizona. 
We have virtually no runoff. Our mountains are extraordinarily 
dry. The fuel loads are extraordinary, as, Jerry Williams, you 
pointed out. That 50 versus 1,500 trees is the rule in the 
ponderosa forests in Arizona and New Mexico.
    There is no plan as far as I can see to deal with this on a 
landscape or large area treatment basis. Or if there is a plan, 
it does not have the support of the administration. I find this 
odd because last August the Secretary of the Interior and 
Director Bosworth came to Arizona--is there anybody here that 
does not know Dr. Wally Covington?
    [No response.]
    Senator Kyl. You all know him. Is there anybody at the 
table who does not think that he has good ideas about what 
needs to be done? I mean, they are basically the underpinning 
of what you are trying to do.
    So we went out with Wally and Secretary Norton and Director 
Bosworth, and they all agreed that we needed to convert the 
demonstration research that he was doing near Flagstaff to 
large area treatment. The following week the President was--
there were pictures taken up in, I believe, Idaho. I am not 
sure, but he had a saw. He was sawing a branch off. The point 
was that we need mechanical thinning because the prescribed 
burning, as you pointed out, Mr. Williams, it is almost to the 
point of too risky to do in many cases. But there are still 
areas where it can be done, especially after mechanical 
thinning.
    Now, the GAO 3 years ago put out a report, and I do not 
have the exact statistics in front of me, but I think they said 
we had something like 35 million acres to treat and we had no 
more than 20 to 25 years to do it before it would all be 
diseased or burned up. I do not know what the ratio is between 
number of acres burned versus number of acres treated, but I 
will just bet you that it is on the order of ten to one burned. 
So we do not have that 35 or 36 million acres to treat any 
more. It is down now to about 30 or 31, because most of them 
have burned.
    Can you tell me, anybody, off the top of your head how many 
acres have been treated with mechanical thinning last year on 
our Federal lands, order of magnitude?
    Mr. Williams. I cannot give you a firm accurate answer, but 
it is only a fraction of the total treatments.
    Senator Kyl. Right. What I would like to know is, just give 
me two numbers here within the next few days: the number that 
were planned to be treated and the number that were actually 
treated last year? And what is on your plan for treatment this 
year? If you could just do it in two tranches, on the national 
land generally and then if you would also give me the figure 
for the New Mexico-Arizona ponderosa pine forest. I would 
appreciate that.
    We are getting nowhere fast, is the bottom line. Does 
anybody disagree with that?
    Mr. Williams. I would point out, though, that mostly with 
the support of this committee and others, funding for the 
national fire plan has helped us tremendously. We are treating 
more acres than we are losing to wildfires in the last couple 
of years, but the rate of treatment is still far short of where 
it needs to be.
    Senator Kyl. Why eliminate the funding, just $1.6 million 
for the Rocky Mountain research work at Northern Arizona 
University?
    Mr. Holtrop. The Department outlined in the budget 
justification the funding needed for fiscal year 2003. We are 
focusing the agency's budget on results and we are moving 
toward consolidating and coordinating research projects.
    Senator Kyl. Okay, so did you recommend that?
    Mr. Holtrop. Decisions have not been made yet as to what 
actual programs----
    Senator Kyl. The budget that came up from the 
administration, this program was not in there. Was that a 
decision by Director Bosworth or was that a decision by OMB?
    Mr. Holtrop. There has not been a decision yet as to what 
specific programs. We are waiting on whatever action comes out 
of the appropriation language for 2003 before decisions are 
made as to what specific programs.
    Senator Kyl. Just as of right now that $1.67 million, would 
you support keeping that in the budget?
    Mr. Holtrop. We would look at that in conjunction with all 
the other research needs and all the other proposals that we 
have and make sure that we are focusing on the important 
things.
    Senator Kyl. Will you tell me what the recommendation is at 
the time that it goes up the chain to Director Bosworth and on 
to the OMB?
    Mr. Holtrop. Will I tell you what that recommendation is?
    Senator Kyl. Yes, what your recommendation is.
    Mr. Holtrop. To the degree that I get involved in that 
level of detail in it, certainly.
    Senator Kyl. Well, see, the problem is we cannot figure out 
where these decisions do not get made. And the problem is it 
was not in the budget this last year. Everybody recognizes the 
work is very important and nobody can figure out how to get it 
back in there. We can do that through earmarks through the 
appropriation process, but there is a finite amount of money 
involved in the appropriation process. Somebody in the 
administration has to fight for what you say you believe in.
    Let me ask you this. Do any of you disagree with this 
proposition, that there are two main reasons this is not 
getting done: A, not enough money; and B, too many 
environmental lawsuits or too much environmental opposition. 
Does anybody disagree with that proposition?
    Mr. Holtrop. Well, certainly when you look at the magnitude 
of the issue before us, the amount of money that is needed in 
order to do so is tremendous and we do need to continue to 
focus on that as well. Also, we recognize that there are 
several steps that need to be gone through before we are able 
to accomplish some of the projects that we want to have. Chief 
Bosworth has been talking about some of those concerns over 
some of the types of process problems that we have.
    Senator Kyl. We know that there are steps and we know that 
he is talking about it. I am trying to get down to specifics. 
As an order of magnitude, how much more money would have to be 
in the budget to realistically accomplish this within an 
appropriate time frame?
    Mr. Hartzell. Senator, I have not seen an analysis of that.
    Senator Kyl. Well, whose job is it to figure out how much 
it would cost?
    [No response.]
    Senator Kyl. Do you know who in the Federal Government has 
the responsibility for carrying out the plan, which is to 
engage in this large-scale restoration in a time frame that 
beats the fire or the bugs?
    Mr. Holtrop. Senator, we are currently, the Department of 
the Interior and the Forest Service, are currently working on a 
cohesive strategy for fuel hazard reduction work which 
identifies what are some of the long-term needs that we need to 
do to help us get on top of the hazardous fuels reduction 
program.
    Senator Kyl. Mr. Chairman, I would suggest we are going to 
have to do it. If they are just now working on a plan to try to 
figure out what is going to be necessary when it has been 
evident--I have been working on this since 1994 and every year 
I try to get more money, and I have talked to you, Mr. 
Chairman, about it. Everybody recognizes what has to be done, 
but nobody can figure out how to get it done. Nobody knows who 
is in charge. Everybody is afraid to fight the 
environmentalists. Nobody is willing, I think, to take it up 
the chain.
    If OMB is the problem, then we can deal with OMB. But we 
have got to have people who understand the issues, as the three 
of you gentlemen do, to lay it out so that we can have a 
coherent plan we can take to the administration and get done.
    I am very, very disappointed in your testimony, I have to 
say.
    The Chairman. Senator Smith.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I would ask that my 
opening statement be included in the record.
    The Chairman. It will be included.
    [The prepared statement of Senator Smith follows:]
  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon
    Thank you, Mr. Chairman, for holding today's hearing on the 
National Fire Plan and our nation's preparedness for wildfire. I 
continue to believe that attentiveness to this subject is one of the 
most important tasks of this Committee, lest we forget that on the 
ground there are thousands of brave men and women putting their lives 
on the line to defend society's values against the increasingly 
destructive forces of mismanaged forests.
    Unfortunately, the past Administration was in a total state of 
denial over the cumulative effects of non-management on the health of 
our forests. They believed that if you wrapped enough red tape around a 
forest, fire and disease would be held at bay. After eight years, 
however, the ``gag rule'' in the Executive Branch has finally been 
lifted. There is now an open and honest acknowledgment of the need for 
regulatory and administrative reform-breaking what Chief Bosworth calls 
``analysis paralysis.''
    Unfortunately, that recognition has yet to sink in with this 
Congress. The Farm Bill contained several provisions in the Forestry 
Title--such as the ``hazardous fuels to energy'' grants program that 
were absolutely vital to making tangible forest health progress. Yet 
these provisions, and nearly all others in that Title, were eliminated 
from the bill. I hope that this Committee is prepared to take up where 
the Farm Bill left off with respect to biomass and stewardship 
contracting authority.
    In a time when mills continue to close in my state, and timber 
offered on public lands is virtually non-existent, we should at least 
attempt to demonstrate that the government values living and 
sustainable forests and healthy riparian areas more than charred wood, 
burnt homes and scorched earth. As a Senator from a state whose fire 
season is already well underway, I hope that commitment comes sooner 
rather than later.
    Again Mr. Chairman, thank you for holding today's hearing.

    Senator Smith. Gentlemen, one of the comments I hear with 
some urgency is from private landowners in my State of Oregon 
whose land borders forest land and the health of which is I 
think in question, and the fear is that because there is such a 
heavy fuel load that it is ripe for catastrophic fire that 
clearly does not have a boundary when it comes into private 
land.
    Is there a focus on that now? Can you describe that focus, 
if any?
    Mr. Hartzell. Senator Smith, I can tell you on the Interior 
side, specifically in the Pacific Northwest, the agencies are 
running a pretty seamless program where they are providing 
fuels treatment funds to adjacent private landowners so that 
they can treat fuels adjacent to Federal lands so that it can 
benefit the overall landscape or watershed.
    I am not prepared to give you the specific amount of funds 
that we have used to accomplish that. I would certainly be 
happy to follow up on it. I can assure you that we are 
collaborating with private landowners in trying to get funds in 
their hands so they can treat on private lands to benefit all 
lands.
    Mr. Holtrop. That is true with the Forest Service as well. 
It is a component part of our national fire plan strategy.
    Senator Smith. I think I am glad to hear that you all 
recognize that as a real urgent problem, because no one knows 
exactly what the fire season is going to be like this year, but 
some evidence that it is already beginning and we may not be as 
optimistic as we perhaps were earlier in the spring when there 
was a lot of rainfall.
    But there is an active program. Are you hearing from 
neighbors that they are reaching out to you, they are getting 
the resources they need?
    Mr. Hartzell. Again, I go back to the Pacific Northwest. It 
is an area that we talk about being a model for cooperation. It 
is a good example of an area where local governments and 
homeowners associations are coming to the Federal agencies and 
saying: What can we do to help in the overall effort? How can 
you help us, train us so that we can talk to our citizens about 
reducing fire risks in their communities? There seems to be a 
great deal of interaction in that area.
    Senator Smith. Well, the reason for it is simply that what 
little active forest management is going on is happening on 
private lands and there is obviously an awful lot of economic 
value there they want to protect, and they are concerned that 
we are not getting to you the budgets, you are not asking for 
the budgets, to do the thinning, improve the forest health in a 
way that can protect them and the public resource of our 
forests against catastrophic fires.
    So I would echo what Senator Kyl was saying only in that we 
really need to make this the highest priority. Mr. Chairman, 
for that reason I thank you for holding this hearing because I 
think it does put the focus where it needs to be.
    So anything and everything you can do, know that you are 
going to have a lot of people anxious to be helpful to you 
here, because nothing is served, the environment is not served, 
the economy is not served, and property rights are violated by 
catastrophic fire that does not know the boundary between 
public and private lands.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me ask about two other issues. One, Mr. Hartzell, I 
could ask you. In the year 2000 Congress required you to 
publish a list of these wildland-urban interface communities 
within the vicinity of Federal lands that are at high risk for 
wildfire. In January 2002 the General Accounting Office report 
notes that, because you did not establish well-defined 
criteria, you determined that over half of the high-risk 
communities are in three States, in Georgia, North Carolina, 
and Tennessee, and these are States that are not prone to 
severe wildland fires.
    Is this being reprioritized? Obviously, I think my 
interest, perhaps a parochial one, but my interest was to see 
that the communities in the areas of the country where the fire 
risk was greatest would be on this list, and that did not seem 
to happen. We had a few communities in New Mexico that were 
identified, but very few.
    Did you have an insight into what has happened there or 
what is happening, what is planned?
    Mr. Hartzell. Yes, Senator. I think much has been taken out 
of context in that list of communities. Here is what I mean by 
that comment. The initial list of communities was established 
in January 2001. There were roughly 4,000 communities on that 
list. We tried to work with the State foresters to establish 
that list. What we heard was: We need more time, we need 
another opportunity to evaluate communities at risk; you came 
at us quickly; this is going to take some time.
    We published another Federal Register notice sometime in 
the summer of 2001 and the list of communities was expanded 
from roughly 4,000 to somewhere in the vicinity of 11,000 
communities at risk. It was up to the State foresters to 
identify those communities. Of the roughly 11,000 communities 
within the vicinity of Federal lands, roughly 9,000 of those 
are within the vicinity of lands administered by the Department 
of the Interior and the Forest Service.
    Then the State foresters said: But that does not reflect 
the pure magnitude of the problem. There is another 11,000 
communities in this country that are at risk. They are not 
within the vicinity of Federal lands. So the State foresters 
are maintaining a list that has over 22,000 communities at 
risk.
    The issue about so many communities being identified in 
Georgia and that vicinity I think has gotten blown out of 
proportion, in our opinion, by the General Accounting Office. 
When you look at where the fuels treatment dollars are 
targeted, 94 percent of them are west of the Mississippi, where 
some of the most hazardous fuels conditions exist.
    The other thing, Mr. Chairman, I would like to mention, we 
did provide some uniform national criteria for the State 
foresters to use when they prioritized communities. We said as 
a minimum they had to look at fire behavior, they had to look 
at the infrastructure that was in place, they had to look at 
the values at risk, and they had to determine the willingness 
of the community to participate.
    You mentioned the State of New Mexico with 20 communities 
on a list. That is a good example of collaboration between the 
Federal agencies and the State forester. That is a very well-
defined list of communities and the State forester and the two 
Departments are working hard to try to address fuels conditions 
around the communities on that list.
    The Chairman. The concern I have is that there was a group 
of highest risk communities. It is a group of 545 and of that 
group--and I gather this must have been decided by the 
Department of the Interior or somebody at the national level, 
because obviously each State wants to have its communities on 
the highest list. But there was a highest risk list and of the 
545, 278 out of that or a majority are in those three States.
    So why--I can understand why State foresters would say we 
have got all these communities and they are all high priority. 
But when it comes to the Department of the Interior and the 
Forest Service making up the list of highest risk communities, 
why would we be putting such priority in these three States 
that do not seem to have a real fire hazard problem. At least 
it does not seem comparable to what we are faced with in the 
West.
    Mr. Hartzell. Well, again, Senator, we are not placing a 
high priority on the communities in those States. Again, 94 
percent of our planned fuels program last fiscal year was west 
of the Mississippi.
    Senator, just for a point of clarification, we have told 
all of our States to go back to their State foresters and 
continually work with State foresters and collaborative working 
groups in every State to make sure that those lists are up to 
date and that we are feeding the fuels treatment program with 
the highest priority projects.
    The Chairman. Let me ask about one other issue and then I 
will defer to Senator Cantwell and she can ask her questions 
and close the hearing.
    Categorical exclusions under the National Environmental 
Policy Act allow the Forest Service to expeditiously review 
whole categories of actions that do not have a significant 
effect on the environment. About 2\1/2\ years ago a Federal 
district court invalidated the Forest Service's categorical 
exclusion of timber sales and salvage harvests. The court left 
room for the Forest Service to reinstate categorical exclusions 
for small timber and salvage sales that the agency can 
demonstrate will collectively lack these significant 
environmental effects.
    It has been 2\1/2\ years. The problem I am trying to 
address here is that some of the fires we have had in the last 
couple of years in New Mexico, they have had an enormous delay 
after the fire in trying to determine whether they could do 
salvage sales. It takes more than a year to make a 
determination as to whether some salvage sale is possible and 
by then at least in the view of some is that the timber has 
been rendered useless and nobody bids on the salvage sale.
    So why is it taking so long, more than this 2\1/2\ years, 
to complete work on this categorical exclusion? Is this 
something, do you have a draft policy for the categorical 
exclusion of salvage timber sales that we can expect soon, or 
what is happening on that?
    Mr. Holtrop. We are currently working with CEQ on 
categorical exclusion authorities. We have, I believe, a couple 
of our employees working full-time with CEQ in their offices to 
work on that issue and other issues to try to get at what are 
the types of things that we need to do to help improve our 
ability to streamline our environmental analysis processes, 
such as expanded use of categorical exclusion authority.
    The Chairman. Can you give us an estimate as to when this 
might come out? It has been a long time.
    Mr. Holtrop. I am not prepared to give you an estimate, 
other than knowing that we have been working with CEQ over the 
last several months, the last few months, where we have 
increased our level of involvement with them by bringing those 
couple of folks over to there from our agency.
    There are some procedural things that are beyond--I do not 
understand how long it is going to take, but I know we are 
hoping to be able to accomplish some of this type of work in 
the next several months, next year, or something like that.
    The Chairman. I would like to ask you to look at some of 
the fires, like we just got control of this Penasco fire in 
southern New Mexico. There is great concern that it is going to 
be over a year before a decision can be made on whether or not 
to have any kind of salvage sale down there. It is not nearly 
as large as the Scott Abel fire of a couple of years ago, but 
still significant.
    Could you perhaps look into that and get back to us as to 
how quickly you think a decision can be made?
    Mr. Holtrop. Yes, Mr. Chairman, we can do that. Again, let 
me express that while we are continuing to work with CEQ on 
some of the administrative steps that need to be taken, that 
does not mean that while we are waiting on that, that we will 
not be continuing to work in as expedited a way as possible at 
looking at what are the appropriate responses to a fire such as 
the Piniasco fire.
    The Chairman. Thank you very much.
    Let me defer to Senator Cantwell and ask her to conclude 
the hearing.
    Senator Cantwell [presiding]. Thank you, Mr. Chairman.
    I would like to follow up if I could, Mr. Williams, on the 
OSHA question. I got a lot of nods at the table and I am not 
sure exactly what that meant. Have you reached an agreement 
with OSHA on how to pursue a partnership?
    Mr. Williams. We have not. The Forest Service, though, is 
in partnership with OSHA in several other areas and we are 
looking at it and we continue to talk to them about it.
    Senator Cantwell. So should I view that as a commitment or 
an exploration? I am very interested in getting a specific 
answer.
    Mr. Williams. We are anxious to do anything we can to 
improve firefighter safety, including partnerships with OSHA.
    Senator Cantwell. So are you going to pursue one in this 
case?
    Mr. Williams. We are working with the region, the region is 
working with the local region of OSHA, and I believe that they 
are pursuing this. I would be glad to look into it further and 
get back with you.
    Senator Cantwell. I would like that. I would like an answer 
on whether the Forest Service is going to enter into a 
partnership with OSHA, given that they have a great deal of 
expertise here pointing out in some independence the problems 
with the implementation that have occurred in the past, the 
fact that we have had the Storm King recommendations that 
mirror the Thirty Mile fire and yet were never implemented--I 
think that they have a great deal of expertise that could be 
beneficial to the Forest Service.
    I have a question about the budget. We had a hearing in 
February where Senator Bingaman asked questions and at the time 
we raised the question that, while the Forest Service has 
repeatedly assured that safety is a key priority, the budget 
actually cut $39 million from the fire preparedness account 
which funds firefighting training and activities. At the time, 
Under Secretary Ray was present and said that he would get back 
to us on exactly how this would pencil out and what exactly 
this would mean.
    To date I do not think we have seen any figures from the 
agency on this, nor have we seen any projected figures for 
fiscal year 2003. So my question is, if safety is such an 
important issue--I am not even sure if you keep track of how 
money is spent. We were led to believe that you kept track of 
money that was spent on safety and preparedness. So my question 
is, is that the case? Are you looking at a decrease? If that is 
the case, how can we assure people that safety and preparedness 
is a priority?
    Mr. Holtrop. We do track the preparedness curves. We do not 
track specifically yet how much we invest in safety per se. We 
are able to get at that figure, but we do not have a database 
that does that specifically. We are developing one that will do 
that. I am afraid I do not have the figures in front of me that 
thoroughly answer the question you are asking, but we can get 
back to you on that question.
    Senator Cantwell. Preparedness curve, you are just saying 
what you spend every year that is in a large bucket that comes 
under the category of preparedness?
    Mr. Williams. No, it is what the preparedness budget is for 
every year. It has been trending upward. I am not sure what the 
2003 program is, but I know that for instance this year we will 
have hired approximately 1,000 firefighters more than we had 
the year previous. That is a reflection of the preparedness 
budget that you folks have helped get.
    Senator Cantwell. Well, we were told by Under Secretary Ray 
that we would get this information and that we would see that 
there is actually an investment being made here. We have not 
seen those figures. Now today you are saying you have to go 
back and get those figures. So I think this is a very important 
issue, firefighting safety and training specifically. We want 
to know how much money is being spent on it and whether you are 
decreasing that or increasing that in this for 2003. And 
exactly--again, it is hard to imagine if you are not keeping 
track of the specific numbers how effective some of those 
programs are.
    Mr. Williams. We will get back.
    Mr. Holtrop. We have some information on tracking of 
firefighter training and safety costs combined, but we do not 
have those penciled out as Under Secretary Ray indicated yet 
for 2003. We will get those for you.
    Senator Cantwell. Thank you.
    That is all the questions I have, but I think we will be 
submitting some. So if not, this hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                              United States Senate,
                 Committee on Energy and Natural Resources,
                                      Washington, DC, May 10, 2002.
Tim Hartzell,
Director, Office of Wildland Fire Coordination, U.S. Department of the 
        Interior, Washington, DC.
    Dear Mr. Hartzell: I would like to thank you for appearing before 
the Committee on Energy and Natural Resources on May 7th. As a follow-
up to our hearing, we have received extra questions to be submitted for 
the record.
    The attached questions have been submitted by my office and the 
office of Senator Jon Kyl. I would appreciate it if you would review 
the questions and return your answers to us by May 24th so that they 
may be added to the record. If no reply arrives by this time, we will 
print the hearing record and note that the answers to the additional 
questions were not supplied at the time of printing.
    Due to the current delay in receiving mail, please provide us with 
your answers by faxing them to the Committee on Energy and Natural 
Resources, Democratic Staff at (202) 224-9026 or (202) 224-4340. Should 
you have any questions, please contact Kira Finkler (202) 224-8164 or 
Shelley Brown (202) 224-5915 of the Committee Staff.
            Sincerely,
                                             Jeff Bingaman,
                                                          Chairman.

    [Responses to the following questions from Senator Kyl were 
not received at the time this hearing went to press.]

    Question 1. How many acres were mechanically thinned in 2001 in 
Arizona:
                A. by the Forest Service?
                B. by BLM?
    Question 2. How many acres do the Forest Service and Department of 
the Interior plan for mechanical thinning in 2002?
    Question 3. What is the ratio of treated acres to burned acres in 
Arizona for 2000 and 2001? Were more acres burned than were treated in 
2001?
    Question 4. What is the Forest Service doing to implement treatment 
on a landscape scale?
    Question 5. How much money is needed to complete landscape 
treatment in Arizona and New Mexico?
    Question 6. I note that the Forest Service plans to terminate the 
wildland-urban interface research program at the Rocky Mountain 
Research facility in Flagstaff. This program is a leading center to 
help us understand how to better manage the small stem material that 
chokes our federal forests in Arizona and New Mexico. Please explain 
the recommendation to terminate this important program? Where this work 
will be carried out in the absence of this center?
                                 ______
                                 
                              United States Senate,
                 Committee on Energy and Natural Resources,
                                      Washington, DC, May 10, 2002.
Joel Holtrop,
Deputy Chief, State and Private Forestry, U.S. Forest Service, 
        Washington, DC.
    Dear Mr. Holtrop: I would like to thank you for appearing before 
the Committee on Energy and Natural Resources on May 7th. As a follow-
up to our hearing, we have received extra questions to be submitted for 
the record.
    The attached questions have been submitted by my office and the 
offices of Senators Ben Campbell and Jon Kyl. I would appreciate it if 
you would review the questions and return your answers to us by May 
24th so that they may be added to the record. If no reply arrives by 
this time, we will print the hearing record and note that the answers 
to the additional questions were not supplied at the time of printing.
    Due to the current delay in receiving mail, please provide us with 
your answers by faxing them to the Committee on Energy and Natural 
Resources, Democratic Staff at (202) 224-9026 or (202) 224-4340. Should 
you have any questions, please contact Kira Finkler (202) 224-8164 or 
Shelley Brown (202) 224-5915 of the Committee Staff.
                                             Jeff Bingaman,
                                                          Chairman.

    [Responses to the following questions from Senator Campbell 
and Senator Kyl were not received at the time this hearing went 
to press.]
                    Questions From Senator Campbell
On cost-benefit issues related to wildfires and forest management:

    Question 1. In a perfect world, are we better off to work to modify 
stand density through timber harvesting and thinnings, or pay for fire 
suppression and then rehabilitation? What are the resource values that 
are lost when we have catastrophic fires?
    Question 2. In the NEPA analysis that the Forest Service does on 
its multiple-use projects do you assess the risk of catastrophic fires? 
Do you consider the cost of fighting the fire and then performing the 
rehabilitation work that these fires cause and contrast that against 
the cost of thinning or harvesting?

On fighting fire:

    Question 1. In practically every firefighting scenario, the initial 
attack is carried out by local communities, oftentimes by volunteer and 
rural fire departments. How are initial attack firefighters considered 
or included in preparedness response?

On the National Fire Plan:

    Question 1. I am interested in learning a little more about 
complexities concerning the forest and urban interface. As we are 
witnessing in Colorado, fires can begin far from urban areas and then 
rage in toward populated areas. Current fire mitigation practices focus 
on a space in a subdivision, for example. Yet, wildfires can overcome 
that initial area. What mitigation resources are available to reduce 
fuel build up to the land adjacent to the subdivision?
                       Questions From Senator Kyl
    Question 1. How many acres were mechanically thinned in 2001 in 
Arizona:
    A. by the Forest Service?
    B. by BLM?
    Question 2. How many acres do the Forest Service and Department of 
the Interior plan for mechanical thinning in 2002?
    Question 3. What is the ratio of treated acres to burned acres in 
Arizona for 2000 and 2001? Were more acres burned than were treated in 
2001?
    Question 4. What is the forest service doing to implement treatment 
on a landscape scale?
    Question 5. How much money is needed to complete landscape 
treatment in Arizona and New Mexico?
    Question 6. I note that the Forest Service plans to terminate the 
wildland-urban interface research program at the Rocky Mountain 
Research facility in Flagstaff. This program is a leading center to 
help us understand how to better manage the small stem material that 
chokes our federal forests in Arizona and New Mexico. Please explain 
the recommendation to terminate this important program? Where this work 
will be carried out in the absence of this center?

                          <greek-d>



</pre></body></html>
